<html>
<title> - FLYING UNDER THE RADAR: SECURING WASHINGTON, D.C., AIRSPACE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




      FLYING UNDER THE RADAR: SECURING WASHINGTON, D.C., AIRSPACE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-25

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                      ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-250 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                               
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
 James Robertson, Staff Director for Transportation and Public Assets 
                              Subcommittee
                Michael Kiko, Professional Staff Member
                        Melissa Beaumont, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2015...................................     1

                               WITNESSES

The Hon. Paul D. Irving, Sergeant at Arms, U.S. House of 
  Representatives
    Oral Statement...............................................     2
    Written Statement............................................     4
Admiral William E. Gortney Commander, NORAD/USNORTHCOM
    Oral Statement...............................................     6
    Written Statement............................................     7
Mr. Robert G. Salesses, Deputy Assistant Secretary of Defense, 
  Homeland Defense Integration and Defense Support of Civil 
  Authorities, U.S. Department of Defense
    Oral Statement...............................................    11
    Written Statement............................................    13
The Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration
    Oral Statement...............................................    17
    Written Statement............................................    19
The Hon. Joseph P. Clancy, Director, U.S. Secret Service
    Oral Statement...............................................    23
    Written Statement............................................    25
Mr. Robert D. MacLean, Chief, U.S. Park Police
    Oral Statement...............................................    30
    Written Statement............................................    32
Ms. Kim C. Dine, Chief of Police, U.S. Capitol Police
    Oral Statement...............................................    33
    Written Statement............................................    35

                                APPENDIX

Letter from Rep. Mica to Chief Dine, USCP, submitted by Rep. Mica    80
House Sergeant at Arms email alerts the day of the incident, 
  submitted by Rep. Mica.........................................    82
Statement for the record, submitted by Rep. Connolly.............    84

 
      FLYING UNDER THE RADAR: SECURING WASHINGTON, D.C., AIRSPACE

                              ----------                              


                       Wednesday, April 29, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the Committee) presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, Farenthold, Lummis, Massie, Meadows, Mulvaney, Walker, 
Hice, Carter, Grothman, Palmer, Cummings, Maloney, Norton, 
Lynch, Connolly, Cartwright, Kelly, Watson Coleman, DeSaulnier, 
and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. And, without objection, 
the chair is authorized to declare a recess at any time.
    As we get going, I need to first express my thoughts and 
prayers to my colleague, Elijah Cummings, and what the people 
of Baltimore are going through. Our hearts and prayers and 
thoughts are with you and your neighbors and your friends and 
your community, the police officers.
    We are proud of you and the way you are conducting this and 
getting through it, and you are a true leader. I would hope the 
people of Baltimore, Maryland, would listen to your message, 
but know that our thoughts and prayers are with you.
    Mr. Cummings. Mr. Chairman, I want to take this moment to 
not only thank you, but thank the members of our Committee, who 
have expressed their concern about Baltimore. And you, Mr. 
Chairman, have a kind of unique perspective because you had a 
chance to visit Baltimore with me before you even became 
chairman. And so you had a chance to see what the issues are in 
our city.
    So I am looking forward to working with you and others to 
try to heal some of that pain. And I do appreciate you. And I 
will never forget your visit, and the people in my city will 
not forget your visit. Thank you for your comments.
    Chairman Chaffetz. Well, thank you. We will be conducting 
this hearing a little differently today. I am going to ask 
unanimous consent that we are going to change the order here, 
that we will recognize our panel, allow them to give their 
opening Statements, and then we will go into recess. We will 
reconvene. We will give our opening Statements and then we will 
get into questions.
    But given that we have the very historic presence of the 
Japanese Prime Minister here to address a joint session of 
Congress, we are particularly sensitive that, for instance, one 
of our witnesses, the House Sergeant at Arms, Mr. Paul Irving, 
has to leave us early in order to fulfill his duties. And to 
accommodate his schedule, I would ask unanimous consent to 
forego opening Statements. For us, we will come back and give 
them later and swear in the witnesses and begin their 
testimony.
    Without objection, so ordered.
    We will get as far as we can and recess so Members can join 
the joint session. We will reconvene 30 minutes after the 
conclusion of the joint session to continue our hearing.
    Without objection, so ordered.
    So we will now recognize our panel of witnesses.
    First we have the Honorable Paul Irving, Sergeant at Arms 
at the U.S. House of Representatives. Mr. Irving is accompanied 
by Mr. Tim Blodgett, Deputy Sergeant at Arms, whose expertise 
may be needed during questioning.
    We also have Admiral William Gortney, Commander of NORAD/
USNORTHCOM; Mr. Robert--help me with the pronunciation----
    Mr. Salesses. ``Salesses.''
    Chairman Chaffetz [continuing]. Salesses, Deputy Assistant 
Secretary of Defense, Homeland Defense Integration and Defense 
Support of Civil Authorities at the United States Department of 
Defense; the Honorable Michael Huerta, Administrator of the 
FAA, the Federal Aviation Administration; the Honorable Joseph 
Clancy, Director of the United States Secret Service; Mr. 
Robert MacLean, Chief of the United States Park Police; and Mr. 
Kim Dine, Chief of the United States Capitol Police.
    We welcome you all.
    Pursuant to Committee rules, all witnesses are to be sworn 
before they testify.
    Mr. Blodgett you are included as well.
    We would ask that all the panel please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Chairman Chaffetz. Thank you. You may be seated.
    Let the record reflect that all the witnesses answered in 
the affirmative.
    All of your written Statements will be entered into the 
record. We would ask that you would limit your verbal comments 
to 5 minutes. We are going to recognize Mr. Irving first.
    At the conclusion of those remarks, we are going to excuse 
him so that he can tend to the duties of escorting the Prime 
Minister into the House of Representatives.
    Mr. Irving, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                STATEMENT OF HON. PAUL D. IRVING

    Mr. Irving. Thank you.
    Good morning, Mr. Chairman, Mr. Cummings, and members of 
the Committee. I appreciate the opportunity to appear before 
you today.
    As Sergeant at Arms and Chief Law Enforcement Officer of 
the House of Representatives, I'm fully dedicated to ensuring 
the safety of the entire Capitol Complex, a mission performed 
in close partnership and cooperation with the U.S. Capitol 
Police Board and the men and women of the United States Capitol 
Police.
    Before I begin, though, I would like to extend my thanks to 
all the men and women of the U.S. Capitol Police for their 
capable and professional response to the indicant on April 15. 
U.S. Capitol Police officers and officials promptly responded 
to the west front and arrested the individual and ensured the 
craft was harmless.
    We are currently working closely with our partners in 
Federal law enforcement, the Departments of Defense, 
Transportation, and Homeland Security to maintain robust 
airspace security within the challenging confines of the urban 
environment of the national capital region, in particular, 
working with our partners to ensure the most efficient and 
robust early detection, tracking and warning systems, ensuring 
there is consistent and constant interagency communication and 
early warning communicated in realtime, improving and ensuring 
immediate and ongoing communications and alerts to members and 
staff during a security incident, and honing the 
countermeasures and policies consistent with those 
countermeasures.
    Since the event, I've ordered the Chief of the Capitol 
Police to utilize the House notification system to alert 
members, staff and, to the extent possible, visitors in as 
timely a manner as possible to alert regarding all life, 
safety, and potentially threatening events that affect the 
Capitol community.
    The incident on April 15 reminds us all the greatest asset 
of the Capitol, its very openness and accessibility, can, at 
times, be one of our greatest challenges. However, every 
incident allows us to refine our capabilities, enhance our 
training, and be better prepared for every eventuality.
    I am happy to answer questions. Thank you, Mr. Chairman.
    [prepared Statement of Mr. Irving follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Chaffetz. I thank you. Please be excused and tend 
to your duties. We thank you and we look forward to seeing you 
at the conclusion of that event.
    Mr. Irving. Thank you.
    Chairman Chaffetz. Admiral, you are now recognized for 5 
minutes.


             STATEMENT OF ADMIRAL WILLIAM E. GORTNEY


    Admiral Gortney. Chairman Chaffetz, Ranking Member 
Cummings, and distinguished members of the Committee, I'm 
honored to be here today. From a national security perspective, 
I want to emphasize the sensitivity of these discussions in an 
unclassified environment.
    An open discussion of even unclassified information could 
be pieced together to pose a risk to our national security. 
Therefore, I cannot go into many of the specific details I deem 
sensitive in an unclassified environment. However, in a closed 
session, I'm ready and able to talk to you in much detail as 
you need.
    NORAD's role is to provide aerospace warning and control to 
defend the United States and Canada, including the national 
capital region, from all potential air threats. The airspace 
surrounding the national capital region, known as the 
Washington, DC, special flight rules area, is monitored by a 
sophisticated integrated air defense system, which is a vast 
network of radars, cameras, and other detection warning 
devices. Each system is designed to detect, track, and monitor 
specific parameters.
    The integrated air defense system was implemented following 
and in direct response to the terrorist attacks of 9/11 has 
continued to evolve with the threat over time. We are extremely 
capable of identifying and tracking potential threats to the 
national capital region, anything from commercial aviation down 
to small single-propeller-sized aircraft like Cessnas.
    However, a small manned gyrocopter or a similar low-
altitude, low-speed aerial vehicle, despite its assessed low 
threat, presents a technical challenge.
    This is an interagency effort that collectively understands 
the technical challenges associated with these types of threats 
and vehicles, and with our partners here at the table, we will 
continue to implement technical and procedural solutions to 
close any seams.
    I know the Committee has questions, and I look forward to 
talking with you today.
    [Prepared Statement of Admiral Gortney follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. Appreciate it.
    Mr. Salesses.

                 STATEMENT OF ROBERT G. SALESSES

    Mr. Salesses. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and distinguished members of the Committee. I'd like 
to thank you for the opportunity to address the Department of 
Defense's role in securing the airspace of Washington, DC. I'd 
like to acknowledge that aspects of this issue are very 
sensitive for the Department of Defense from a national 
security standpoint.
    I look forward to continuing this discussion in a 
classified setting. Because I know there's much to discuss, I 
will be brief. To this end, there are four points I would like 
to emphasize today.
    No. 1, defending the United States is the Department of 
Defense's highest priority. No. 2, the Department of Defense is 
well postured to defend the United States. No. 3, the 
Department works very closely with its Federal partners and law 
enforcement to protect the national capital airspace. And, 
last, the Department continually pursues opportunities to 
enhance our homeland defense capabilities.
    The national security strategy makes it clear that the U.S. 
Government has no greater responsibility than protecting the 
American people. Our national defense strategy make protecting 
and defending the homeland the Department's first priority.
    To the men and women of the Department of Defense, military 
and civilian, these specific words are the reason they serve in 
the very core of their professional lives. Every day these fine 
men and women, whether serving here at home or some far-off 
location across the globe, dedicate themselves to protecting 
the American people and defending the United States.
    Due to the leadership of the President, the Secretary of 
Defense, and the Congress' steadfast support, DOD is well 
postured with the authorities and capabilities necessary to 
defend the homeland. Under Admiral Gortney's leadership and 
command, the men and women of NORAD execute Operation Noble 
Eagle, monitoring the U.S. Airspace, conducting military 
operations to dissuade, deter, and, if necessary, defeat 
airborne threats.
    In this effort to secure the skies over our Nation's 
Capital, the men and women of the Department of Defense do not 
serve alone. They are joined by the counterparts at the 
Department of Homeland Security, the Department of 
Transportation, the Department of Justice and our law 
enforcement partners in a whole-of-government approach to 
protecting the national airspace.
    Working together, we have built a network of barriers to 
protect the national airspace system against any and all 
threats. We have improved our threat detection capabilities, 
integrated our threat responses, and refined our procedures to 
optimize response effectiveness.
    We continually look for opportunities to improve our 
defenses. We understand that, no matter how good we are, the 
adversary remains committed and we can always be better.
    To this end, we're dedicated to continual improvement over 
our policies, procedures, and operational capabilities. Working 
with our Federal partners, we test, we plan, we exercise to 
improve our effectiveness. This is what the Nation expects. 
We're committed to meeting this expectation, and this is our 
obligation.
    Thank you for the opportunity to appear before you today. 
We appreciate your leadership, Mr. Chairman and members of the 
Committee, and your support of the men and women of the 
Department of Defense. I look forward to your questions.
    [Prepared Statement of Mr. Salesses follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Mr. Huerta.

               STATEMENT OF HON. MICHAEL P. HUERTA

    Mr. Huerta. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, members of the Committee, for the opportunity to 
appear before you today.
    I'd like to address your questions about the recent 
gyrocopter incident by explaining the FAA's role in airspace 
security and how we coordinate with other agencies.
    First and foremost, the FAA's mission is aircraft and 
airspace safety. We operate the Nation's air traffic control 
system in order to separate aircraft. Our primary focus is on 
getting aircraft safely to their destinations and managing the 
flow of thousands of aircraft and their passengers around the 
country every day.
    In addition to the FAA's safety mission, we also work very 
closely with the Departments of Defense and Homeland Security 
on a daily basis to support their aviation security missions, 
particularly here in the capital region. As part of that 
support, we provide them a raw air traffic radar feed so they 
have situational awareness of what is happening in our national 
airspace system.
    To enable our controllers to safely control air traffic, 
the first thing we have to do is distinguish the aircraft that 
are communicating with controllers from all other objects in 
the air that are not aircraft. These other objects that the 
radar detects could be things like vehicles on nearby roadways, 
flocks of birds, weather events, or occasional kites and 
balloons.
    Air traffic controllers could not do their jobs if they had 
to work with an unfiltered radar feed. They would not be able 
to distinguish the aircraft they are charged with safely 
handling from other elements on their radar scopes.
    We require aircraft that fly in the airspace around 
Washington, DC, and other large cities across the country to 
use transponders that broadcast basic information, such as the 
type of aircraft, its speed, direction, and altitude. When 
radar detects those aircraft, it picks up the transponder 
information and it displays it on the air traffic controller's 
radar scene.
    Controllers can see all the flights in the specific area 
along with the identifying information from each aircraft. 
Anything that doesn't have a transponder shows up as an image 
representing a simple small dot on the radar screen, and there 
are typically many of them across the controller's radar 
screen.
    To assist controllers in focusing on safely managing air 
traffic, we apply filters to the controller's radar to 
eliminate the vast majority of those small dots. Safely 
managing air traffic is a controller's mission, and they must 
be able to do that without distraction.
    Now, to support national and Homeland Security, the FAA 
shares a realtime unfiltered radar feed with our partners at 
the Department of Defense and several other agencies. We do 
that so they have the same information that we have and so they 
can apply the appropriate filters for their own mission to 
protect the airspace.
    We also embed technical air traffic staff at a number of 
North American Aerospace Defense Command facilities around the 
country to provide additional operating expertise and support.
    On April 15, Mr. Hughes' gyrocopter appeared on our radar 
as one of those small unidentified elements, indistinguishable 
from all other non-aircraft radar tracks. The National Capital 
Region Coordination Center called the FAA at 1:24 p.m. that 
afternoon to alert us to the flight based on information they 
received from the U.S. Capitol Police.
    After the incident, we conducted a forensic radar analysis 
and looked for an image that might match Mr. Hughes' 
gyrocopter. We understood he had taken off from a small airport 
in Gettysburg, Pennsylvania, and we had an approximate time.
    So we looked at unfiltered radar data. A trained radar 
analyst identified a slow-moving image that traveled from 
Gettysburg toward the capital and vanished from radar at about 
the time Mr. Hughes landed on the west lawn. We now believe 
that unidentified radar element was Mr. Hughes' gyrocopter. But 
the dot appeared only intermittently throughout that flight.
    When we got the call from the Capitol Police, we 
immediately notified our interagency partners on the Domestic 
Events Network, or DEN, a 24-hour, 7-days-a-week communication 
line we operate to support a shared situational awareness among 
our agency partners.
    We initiated the DEN more than a decade ago to quickly 
share information about activity in the airspace with multiple 
agencies. It now includes more than 130 Federal and local 
agencies as well as major FAA air traffic facilities around the 
country. The DEN has played a critical role in disseminating 
important operational information to other agencies as quickly 
as possible.
    Each agency has a responsibility to announce an airspace 
incident on the DEN as soon as they know about it. We're 
committed to our safety mission at the FAA, and we're dedicated 
to working closely with all of our airspace security partners 
to support protection of our airspace.
    We're assisting the Department of Homeland Security in its 
ongoing interagency review, and this is in addition to our own 
internal review to ensure that FAA employees followed all the 
proper procedures and protocols during the event. If we need to 
make changes as a result of these efforts, we will. And I will 
keep the Committee informed.
    I would be happy to take your questions.
    [Prepared Statement of Mr. Huerta follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Director Clancy.

               STATEMENT OF HON. JOSEPH P. CLANCY

    Mr. Clancy. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and distinguished members of the committee. Thank you 
for the opportunity to be here to discuss the Secret Service's 
role within the broader effort to secure the airspace of the 
national capital region, or the NCR.
    The longstanding relationships between interagency 
partners, many of which are represented here today, are 
critical to ensuring the security of people in places given 
protection by the Secret Service and others.
    The Secret Service must be prepared to confront and defeat 
evolving threats, including those from small manned and 
unmanned aircraft systems. As these technologies become both 
more advanced and more widely available, the Secret Service 
will continue to work aggressively with our partners to address 
existing threats and anticipate those to come.
    Existing FAA flight restrictions in the NCR were enhanced 
following the 9/11 terrorist attacks. The FAA implemented the 
special rights--I'm sorry--the special flight rules area, which 
includes within its boundaries the flight restricted zone and 
prohibited area, P-56, or Area 56. The White House, the Vice 
President's residence, and the U.S. Capitol are located within 
the P-56.
    The Secret Service's role in the administration of the 
restricted airspace is limited to issuing waivers for access to 
the P-56 in consultation with the Capitol Police and the Park 
Police.
    Airspace security for the NCR is coordinated by the 
interagency National Capital Region Coordination Center. The 
Center was created after the September 11, 2001, terrorist 
attacks to provide realtime information-sharing and tactical 
coordination to address potential airborne threats in and 
around the Washington, DC, area.
    It is staffed at all times with specially trained personnel 
assigned to the Secret Service Airspace Security Branch in 
addition to representatives from the military, the FAA, and 
selected Federal civilian law enforcement agencies.
    The mission of the Secret Service Airspace Security Branch 
is to give early notification to the protective details and 
uniform division and provide realtime information to allow 
appropriate time to make informed decisions about actions to 
take to ensure the security of our protectees and protect its 
sites.
    Given the pace at which events can unfold in an air 
incursion, maximizing the time to react is critical. Presently 
the Airspace Security Branch combines radar feeds from a number 
of sources to create an image of the airspace. This image is 
monitored by the detection system specialists who have military 
or civilian radar backgrounds.
    With respect to the history between the Secret Service and 
Douglas Mark Hughes, the pilot from the April 15 incident, 
Hughes first came to the attention of the Secret Service on 
October 4, 2013. At that time, the Secret Service obtained 
information that Hughes intended to fly a single-seat aircraft 
onto the grounds of the Capitol or the White House with no 
specific timeframe provided.
    That same day the Secret Service relayed the information to 
our law enforcement partners at the Capitol Police. The 
following day special agents from the Secret Service 
interviewed Hughes, who denied owning an aircraft or having 
plans to fly one to Washington, DC. However, subsequent 
corroborative interviews revealed differently.
    Further, the investigation revealed no evidence of an 
interest in persons or places protected by the Secret Service, 
and information regarding Hughes was made available to other 
interested law enforcement agencies in the national capital 
region.
    Regarding events leading up to the April 15 incident--I 
went to be clear--at no time did the Secret Service receive 
actionable advanced notice or any information that this event 
was taking place.
    While the Secret Service received telephone calls on the 
date of the incident, at no time was information provided in 
the calls that would have alerted our personnel to the fact 
that Hughes was piloting his aircraft to the Capitol.
    As the gyrocopter flew in the direction of the Capitol, it 
was observed by Secret Service personnel in the area of the 
White House complex. These individuals subsequently relayed 
that information through their chain of command. While in the 
process of making the appropriate notifications, the aircraft 
landed and the incident was acknowledged on the FAA Domestic 
Events Network, effectively notifying all relevant parties.
    That day and the days to follow, the Secret Service field 
offices gathered information regarding Hughes and his 
activities leading up to the event. While the Capitol Police 
are the lead investigative agency in this matter, the Secret 
Service stands ready to continue to contribute any resources 
necessary and to work collectively with our partners.
    Protection of the President, his family, and the White 
House is paramount to this agency. The partnerships represented 
here today are critical to the success of our mission as it 
relates to effectively addressing airborne threats. Continued 
interagency coordination is vital to ensuring safety and 
security in the airspace of the NCR.
    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, this concludes my testimony. I welcome any 
questions you may have.
    [Prepared Statement of Mr. Clancy follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. I thank the Director.
    Chief MacLean.

                 STATEMENT OF ROBERT D. MacLEAN

    Chief MacLean. Mr. Chairman, Ranking Member Cummings, and 
members of the Committee, thank you for the opportunity to 
discuss the United States Park Police involvement in the April 
15, 2015, gyrocopter incident in Washington, DC. My name is 
Robert MacLean. I am the Chief of the United States Park 
Police.
    United States Park Police, established in 1791, is the 
oldest uniformed Federal law enforcement agency in the United 
States. The Park Police, which is primarily responsible for 
safety and crime prevention in parkland administered by the 
National Park Service, has enjoyed a long history of 
partnership and coordination with the numerous public safety 
protection, aviation, and defense agencies within the national 
capital region.
    In the District of Columbia, the Park Police has primary 
jurisdiction over Federal parkland, which comprises 
approximately 22 percent of the District of Columbia, including 
the National Mall, East and West Potomac Parks, Rock Creek 
Park, Anacostia Park, McPherson Square, and many of the small 
triangle parks in the District.
    The Park Police officers who proudly and diligently patrol 
Federal parkland every day are trained to identify, report, and 
investigate violations of law and suspicious or unusual 
activity. Although the Park Police has an aviation unit that 
flies law enforcement, MedeVac, and search-and-rescue missions 
within the national capital region, the Park Police does not 
have primary responsibility of airspace defense over the 
Federal parklands.
    As such, the Park Police does not have radar detection 
capability to monitor that airspace, nor does it have the 
appropriate tools to engage or defend against an aircraft in 
the airspace above these parks. Those primary responsibilities 
and capabilities rest with other Federal agencies.
    On Wednesday, April 15, 2015, at approximately 1:20 p.m., a 
Park Police officer observed and reported an aircraft later 
identified as the gyrocopter operated by Mr. Doug Hughes. It 
was operating near the Lincoln Memorial and estimated to be 
approximately 100 feet off the ground and traveling eastbound 
toward the United States Capitol.
    The officer made a request to the Park Police Dispatch 
Center to contact the United States Capitol Police. The patrol 
supervisor confirmed the observation and requested the Park 
Police Dispatch Center notify the Park Police Aviation Unit, 
which, in turn, contacted the National Capital Region 
Coordination Center to report an aircraft in a restricted 
airspace.
    Another Park Police officer observed and followed the 
aircraft eastbound in his patrol vehicle to where the aircraft 
landed on the west grounds of the United States Capitol. The 
Park Police officer arrived at the Capitol Grounds and observed 
the U.S. Capitol Police arresting Mr. Hughes. At that point, 
the Park Police became an assisting agency to the United States 
Capitol Police on the scene and at their command post.
    Mr. Chairman, this concludes my Statement. I would be 
pleased to respond to any questions you and other members may 
have.
    [Prepared Statement of Chief MacLean follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Chief Dine, you are now recognized for 5 minutes.

                    STATEMENT OF KIM C. DINE

    Chief Dine. Mr. Chairman, Ranking Member Cummings, members 
of the Committee, good morning. And thank you for the 
opportunity to discuss the event that occurred on Wednesday, 
April 15, and the actions taken by the United States Capitol 
Police.
    I will begin by providing a time line of the events and 
will gladly answer any questions that you may have. It is 
important to note that this is an ongoing criminal 
investigation.
    On Wednesday, April 15, at 12:59 p.m., an individual from 
the Tampa Bay Times sent an email to the U.S. Capitol Police 
public information officer, stating that a local man was 
planning on flying a gyrocopter as part of a protest and will 
be attempting to land on the west front. This individual 
inquired if the USCP was aware of the flight and if permission 
had been obtained. No time or date information was provided 
regarding this flight.
    At 1 p.m., the same individual called the USCP Command 
Center and Stated to an officer that he had information about a 
man who was planning to fly a drone onto the Mall and onto the 
west front of the Capitol. He Stated that he had called the 
U.S. Secret Service and they advised him to call the United 
States Capitol Police.
    He also Stated that this man, who he identified as Douglas 
Hughes, had received permission from the U.S. Secret Service 
and the USCP and he was calling to confirm that permission was 
granted. No time or date or actual information was provided 
regarding the flight during this telephone phone call either.
    The officer advised this individual she was not aware of 
any approvals to land a drone. They were then transferred to a 
sergeant in the Command Center, and this individual repeated 
what he had told the officer, except now he referred to the 
aircraft as gyrocopter. The sergeant advised that no approval 
existed for a gyrocopter to land on the Capitol Grounds.
    The caller advised the sergeant that Hughes' live feed 
could be seen on Hughes' Website, which he provided. At this 
point in the conversation, the conversation concluded, and 
during the conversation no mention was made that the landing 
was imminent.
    At 1:07 p.m., the U.S. Capitol Police public information 
officer responded to this email by immediately forwarding it to 
the Investigations Division and currently the Command Center 
personnel went into the provided Website, but did not find the 
live feed noted by the individual from the Tampa Bay Times.
    The Command Center notified the Investigations Division and 
the public information officer. As the Command Center was 
attempting to validate any air flight information with the USCP 
staff at the National Capital Region Coordination Center, the 
gyrocopter landed at approximately 1:23 p.m.
    At 1:21 p.m., just prior to the landing, an officer posted 
on the Pennsylvania Avenue walkway on the west front was 
approached by a reporter, who asked if he had seen a helicopter 
yet. The officer Stated he had not seen a helicopter and then 
consulted with another officer to determine if they were aware 
of any prohibited airspace overflights.
    During this discussion, the officers observed the inbound 
gyrocopter over Union Square, nearly atop the Grant Memorial. 
The officers immediately notified the Communications Center and 
subsequently reported the landing of the gyrocopter. This 
information was immediately broadcast over the radio for 
situational awareness and response.
    The USCP officers immediately assessed the threat in 
accordance with Department policy and training. USCP personnel 
quickly facilitated the movement of the public on the west 
front away from the gyrocopter.
    Once the gyrocopter rotor stopped, USCP officers quickly 
approached the subject and took him into custody. The subject 
did not resist and was compliant with police direction.
    A K-9 unit immediately approached and swept the gyrocopter 
and showed interest in the area of the engine and fuel 
compartment, which was expected. Incident Command was 
established at 1:26 p.m., the west front was closed, and 
vehicular traffic was restricted on First Street between 
Constitution and Independence Avenues, along with Maryland and 
Pennsylvania Avenues to Third Street.
    As this was occurring, the Investigations Division provided 
the commanders in the Command Center with information about the 
subject from the Internet video publicizing the subject's 
ownership of the gyrocopter, his intention to deliver a box of 
letters to Congress in reference to campaign finance reform, 
and his investigative history with both the USCP and the U.S. 
Secret Service. The Command Center notified the NCRCC of the 
situation.
    While the K-9 sweep was occurring, a Capitol Division 
commander directed a brief lockdown of the Capitol and of the 
CVC. When the lockdown was announced via the radio, the 
Uniformed Services Bureau commander, who was in the Command 
Center, consulted with the incident commander.
    The USB commander then decided to lift the lockdown of the 
Capitol based on the following facts: The K-9 had not alerted 
to the body of the gyrocopter, but had shown interest only in 
the area of the engine and fuel compartment; the subject was in 
custody and compliant with directions; the size of the small 
package area of the gyrocopter was limited to two backpack-size 
boxes; information provided by the Investigations Division that 
the intent of the pilot was clearly expressed in his video; and 
the USCP had established a strong perimeter from the gyrocopter 
with distance from the Capitol.
    The exterior perimeters stayed in effect. Due to the 
extremely short timeframe between the lockdown order and the 
direction to lift the lockdown, no messages were sent to the 
congressional community advising of the lockdown.
    The USCP Hazardous Devices Section responded to this 
incident and at 1:36 p.m. utilized a robot to investigate the 
gyrocopter. Since the robot could not access the two boxes in 
the gyrocopter, at 2:11 p.m., the ACS section personnel donned 
protective gear and took x-rays of the boxes.
    The gyrocopter was determined to be clear of any hazards at 
2:57 p.m. Traffic cuts were subsequently released and the west 
front remained closed until the crime scene could be processed 
and the gyrocopter removed.
    It is important to note that, while the USCP does not 
control prohibited airspace over Washington, DC, we do monitor 
this airspace 24/7 and we are directly linked to other Federal 
agencies related in this controlled airspace. On April 15, this 
gyrocopter did not register on radar as a threat and, 
therefore, was not raised as a concern among our Federal 
partners.
    We take the monitoring of prohibited airspace very 
seriously, which is why we have a designated airspace 
coordinator and have assigned liaisons at the NCRCC to provide 
immediate linkage to critical information regarding identified 
airspace threats.
    Information about identified airspace threats allows us to 
make informed decisions regarding the safety of our 
stakeholders, the congressional community, and Capitol Complex.
    Thank you again for the opportunity to discuss this event 
that occurred on Wednesday, April 15, 2015. I am very proud of 
the professional and immediate actions taken by members of the 
United States Capitol Police in addressing this incident. I 
would be happy to answer any questions that you may have at 
this time.
    [Prepared Statement of Chief Dine follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    As previously announced, the committee is going to recess 
so that Members will be allowed to hear the Prime Minister of 
Japan as he addresses the joint session of Congress. We will 
reconvene approximately 30 minutes after the conclusion of 
that. We appreciate your patience.
    The committee is in recess.
    [Recess.]
    Chairman Chaffetz. The Committee will come to order.
    I thank you for your patience. I know you are all very 
busy.
    The chair would like to notify members, remind members, 
that no subcommittee will start until the full committee is 
finished. So we do have two subcommittees that plan to meet at 
2. We also have votes that will happen on the floor in about 45 
minutes.
    We will try to do this as swiftly as possible, but I wanted 
to note that for members and those that might be showing up for 
the 2 hearing. That is going to occur in this meeting.
    But let's address why we are here today, the gyrocopter 
incident that happened 2 weeks ago. The 9/11 Commission after 
that terrible, horrific terrorist attack wrote, ``The most 
important failure was one of imagination. We do not believe 
leaders understood the gravity of the threat.''
    We are here today because we need to understand who saw 
what and when, who communicated what, did it work, did we learn 
those lessons of tragedies of past. On April 15 a man in a 
gyrocopter was able to fly through the highly restricted 
airspace of the national capital region and land on the west 
lawn of the Capitol. He started off in the north, came, went 
over the Lincoln Memorial, right past into the airspace 
surrounding the White House, right past the Washington 
Memorial, and landed on the lawn of the Capitol. Unbelievable.
    He first told the Federal authorities about this--it came 
on the radar about 2 years ago. And the national capital region 
is unique in that the Department of Defense, Transportation and 
Homeland Security, along with the Capitol Police, National Park 
Police, and the congressional Sergeant at Arms all have roles 
to play in protecting the airspace.
    As best I can tell, in this region there are roughly 32 law 
enforcement agencies that have some form of jurisdiction in the 
safety and security of the Washington, DC, area. But it is 
still unclear who on this panel was ultimately responsible for 
first identifying this object entering restricted airspace and 
then for responding to it.
    At this point ignorance is no longer an excuse when it 
comes to drones and small aircraft. In January, a drone crash 
landed on the White House lawn. It is becoming very common 
throughout the world. After the gyrocopter incident, a drone 
with radioactive material landed on the Japanese Prime 
Minister's residence. Dozens of unaccounted drones have flown 
over the streets of Paris since last October. And a drone 
crashed in front of the German Chancellor Merkel at a rally in 
2013.
    There have been several instances involving the White 
House, including helicopters and small aircraft, and this is a 
pervasive threat. It has been there for a long time. It isn't 
going anywhere. And when we show this type of vulnerability, I 
worry that the shine that it will inevitably be taken down and 
taken down hard has gone away.
    Someone should have identified that this type of threat we 
aren't prepared to meet or that our enemies would exploit. Our 
defensive technology must be able to prevent and respond to 
unconventional and emerging threats.
    We need to have that creativity to understand that the 
would-be terrorists and those people who want to see harm to 
the United States of America will likely be creative.
    But in this gyrocopter incident, he was loud and clear what 
he was going to do. In fact, he was live-streaming it. And yet 
nobody seemed to pick that up. News outlets did. They sent 
staff. They sent reporters down on the lawn to watch it.
    The United States military has researched drones since 
World War I and for the last 13 years used them to fight 
against terrorists. Yet, the primary drone detection technology 
currently used by the FAA, NORAD, the Secret Service, and the 
Capitol Police is roughly 70 years old.
    This antiquated technology can't even tell the difference 
between a bird, a drone, a gyrocopter, or just plain old 
weather. Even a mylar balloon sets things off where people are 
hesitant to do anything because it might just be a good old-
fashioned balloon.
    I understand we will hear today about the Pentagon's effort 
to improve our capability to identify and intercept small 
aerial threats. This is the same technology Customs and Border 
Patrol has used on the border for years, long periods of time.
    They have been dealing with this type of gyrocopters and 
hang gliders and all sorts of these types of small aircraft on 
the borders for decades. They have been dealing with this for a 
long time. Did we ever learn any of those lessons? Do we need 
to bring CBP in here to help protect the capital region? They 
seemed to figure it out.
    The stakes are higher, and our agency intelligence-sharing 
and communications coordination can never ever fail us. We must 
make sure all agencies with a role in the National security 
effectively communicate with each other. So, hopefully, we will 
hear today how the agencies represented here have effectively 
communicated about threats in their counterparts.
    Quite frankly, I didn't learn much in your opening 
Statements. That was as bland as we could possibly have been. 
We are here to address a serious topic. We are not going to 
just stand here and say, ``Well, it is classified. We can't 
talk about it.'' Because, evidently, when you have been talking 
about it, it hasn't gotten done.
    I, like other Members of Congress and congressional staff 
and visitors to the Capitol, also have concerns about the 
communication breakdown in alerting the Capitol community about 
this incident. The first Capitol-wide alert came at 5:03 p.m., 
several hours after the incident was over.
    While I look forward to hearing about how the Sergeant at 
Arms and the Capitol Hill Police have updated their policies to 
prevent a breakdown like this from ever happening again, it 
certainly shouldn't have ever happened in the first place.
    It is very disappointing that three of the agencies here--
the FAA; the Department of Defense, NORAD; and the Park 
Police--chose not to brief Members of Congress last week. Now, 
I do appreciate the Capitol Hill Police, the Sergeant at Arms, 
and the Secret Service for making themselves available.
    We had four agents, four committees, four committee 
chairmen, four ranking members, ask for your presence to have a 
behind-the-scenes, closed-door briefing on this topic. And for 
whatever reason, the FAA, Department of Defense, and the Park 
Police refused to brief Members of Congress.
    That doesn't give us a whole lot of confidence, folks. And 
we will yank you up here time and time again until we get 
answers in the public. We are different than the rest of the 
world. We are different. We are self-critical. Don't take it so 
personally.
    Understand this is how we make America the greatest country 
on the face of the planet. We do this in an open and 
transparent way. But when you won't even talk to members in a 
closed-door meeting, that is not acceptable. It is a waste of 
our time. It is a waste of the other people's time.
    We need results because we had some yahoo in a gyrocopter 
land right over there, and it didn't work. And I got these 
opening Statements from you that shed no light other than a 
time line and how big a space the Park Police protects. It 
didn't work. We need candor.
    I want to again thank Director Clancy, Chief Dine, and Mr. 
Irving for their responsiveness to the requests. I can tell we 
have had a lot of interactions with the Secret Service that 
haven't been the most pleasant, but I will thank that agency 
for being so accessible in their communications.
    And particularly Mr. Clancy has made himself available on 
the mobile phone and calling us and making sure that he is 
available here, and I want to publicly thank him for that, even 
though we have had our differences.
    We understand that the mission is difficult to fulfill, but 
you are here today because you have been entrusted to 
accomplish it. We want to help that. We are in the middle of 
our appropriations season. We can't ever have this mission 
fail. So we look forward to hearing more about that.
    Chairman Chaffetz. With that, I will now recognize the 
Ranking Member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Unlike previous hearings our committee has held with the 
Secret Service and the DEA which involve misconduct by 
individual agents, today's hearing presents a different 
question: How should our Nation deal with the relatively new 
and evolving threat of unmanned or small manned aerial vehicles 
entering the airspace over our Nation's Capital?
    This is a question of technology and policy, both of which 
are rapidly evolving. In this case, I do not personally believe 
the answer is to condemn the Capitol Police for not shooting 
down the gyrocopter. I also do not believe we should rush to 
criticize Federal agencies charged with responding to this 
threat.
    Instead, I believe the best course of action is to work 
collaboratively with both the Capitol Police and these Federal 
agencies to understand the threat, understand it, and to 
strongly support their ongoing efforts to enhance current 
technologies, many of which are classified.
    So I thank the chairman for calling today's hearing on this 
very critical issue. I completely understand the frustration 
expressed by the chairman and others about this incident. And 
let me be clear. I share the frustration.
    I said in a meeting the other day so often what happens is 
that we have a tendency to tell each other that everything will 
be fine when the rubber meets the road and then, when it comes 
time for the rubber to meet the road, we discover there is no 
road.
    The airspace around our Nation's Capital is supposed to be 
the most restricted in the world, yet a postal worker--hello, a 
postal worker--from Florida was able to fly his gyrocopter 
through 30 miles of restricted airspace before finally landing 
on Capitol lawn.
    In this case, the individual was only trying to make a 
peaceful demonstration, but we might not be so fortunate in the 
future. It takes almost no effort to imagine what could have 
been. What if he had weapons? What if he were carrying a bomb.
    On the flip side, it is also my understanding, based, in 
part, on classified briefings we have received, that this 
individual is incredibly lucky to be alive today. The next 
person who tries something this stupid--and it was stupid--may 
not be so lucky.
    I would like to thank all of the witnesses for testifying 
here today on such short notice. I also want to thank you for 
providing briefings last week, both classified and 
unclassified. Your missions are extremely difficult, and the 
lives of people throughout the District depend on your success. 
I look forward to hearing from each of you in an effort to 
address this very pressing situation.
    We all agree that our paramount interest is in the 
continued security of the airspace over the capital and 
addressing any possible breaches as effectively and efficiently 
as possible. That is what we are aiming at.
    This is a critical moment, gentlemen, a very critical 
moment. By the way, it is wake-up-call time. We live in a 
dangerous world with complex, constantly evolving threats. So 
it is imperative that we are prepared to counter them.
    In addressing these questions today, however, the last 
thing we want to do, the last thing, is give a road map to 
those who want to harm us. I hope that you all agree on that. 
Don't want to do anything that counters what you do every day, 
and that is trying to protect us.
    So, obviously, we need to treat this information 
responsibly, and we do not want to highlight security 
vulnerabilities to would-be attackers because you can guarantee 
your bottom dollar they are watching.
    Out of an abundance of caution, I want to make 100 percent 
sure that all of our witnesses understand that we do not, we do 
not, want you to discuss any sensitive information in this 
public forum.
    I think all of you know what I mean by ``sensitive.'' And 
if you don't know, raise your hand now and let me know, and we 
will try to make sure you are clear on what we are talking 
about. And I am not trying to be smart either.
    Many of you have raised concerns about holding a public 
hearing on this topic, and I understand your concerns. The 
chairman understands your concerns. Our committee understands.
    After discussions with the chairman and his staff--and I 
want to thank him for this--we have agreed to set up a separate 
cleared room to address any sensitive issues that may arise. 
The bottom line is that you are the experts and we will defer 
to you on what can be discussed in this public setting.
    If our questions call for sensitive information, please let 
us know, and we can reconvene in the closed setting to address 
those issues. Our sole purpose today is to help you counter the 
threats we face, not to expose our Nation's Capital to greater 
danger by exposing operational details or security 
vulnerabilities.
    Now, let me go back to something that the chairman said. 
And I wholeheartedly agree with him on this. Gentlemen, time is 
of the essence. Time is of the essence. And I have not come 
here to ask you. I have come here to beg you to do whatever you 
have to do to get the technology if we don't have it, to speed 
up the technology if it is in the process, to more effectively 
and efficiently allow you to do the jobs that you are sworn to 
do.
    And I want to take this moment again to thank all the 
people who work with you. They are people who have come out 
there every day trying to make sure that we are safe. And I 
want to publicly thank them on behalf of all of us for what 
they do every day.
    And I want them to understand--and I know that the chairman 
agrees with me on this--although there may be criticism, it is 
about moving to a more effective and efficient system of 
protection for all of us. And so one of the best ways to do 
that, of course, is to make sure we have effective oversight.
    And, again, Mr. Chairman, I want to thank you for calling 
the hearing. And, with that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize myself for 5 minutes. And it starts 
with a simple question of who is in charge. You have got a dude 
in a gyrocopter 100 feet in the air, crossing 30-plus miles of 
restricted airspace.
    Whose job is it to detect him? And whose job is it to take 
him down?
    Admiral Gortney. Sir, as the commander of NORAD, that's my 
responsibility, and I'maccountable for that.
    Chairman Chaffetz. Why didn't it happen?
    Admiral Gortney. Because we're working against physics, 
sir. Our system is designed to detect, track, identify. We have 
a decisionmaking process to decide what to do, and then we 
engage.
    And that system is netted sensors, radars, cameras, and 
other capabilities that are out there. And we employ that 
system to the best of our ability, mitigate the risk to the 
best of our ability.
    But it's only capable down to a particular set of 
characteristics that the platform that we want to track and 
defend against is emitting, based on speed and based on size.
    And I can go into further details in the classified 
session.
    Chairman Chaffetz. You are a spokesperson for Michael 
Cuchara in an article dated April 16 in the Baltimore Sun. You 
had launched some balloons at the Aberdeen Proving Ground 
called the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System, otherwise known as JLENS. It was designed 
to help officials, ``spot low-flying, slow-moving targets.''
    Was it working? Was it operational?
    Admiral Gortney. It's not operational, sir. We put it up in 
Aberdeen to test it. It's in testing today. It's not netted 
into our system. And in the investigation we're going to find 
out, while it's in its test mode, was it able to detect that 
particular traffic.
    Chairman Chaffetz. It wasn't operational on that day? You 
weren't testing at that time?
    Admiral Gortney. It's not operational. It's in a test 
process right now. We're using it as a test platform. And it is 
not integrated into our system. Should it prove to be 
effective, our choice is to put it into our system and make it 
operational, but it's not operational today.
    Chairman Chaffetz. U.S. Customs and Border Patrol uses the 
tethered aerostat radar system, or TARS.
    Why aren't you using that?
    Admiral Gortney. That's why we're putting--we think JLENS 
has more promise. And the reason we think JLENS has more 
promise than that is--I'll have to defer to the next session, 
sir.
    Chairman Chaffetz. Once you detect something, whose job and 
role and responsibility is it to take it down?
    Admiral Gortney. Secretary of Defense, Deputy Secretary of 
Defense. And if they're not there, it's my decision or to my 
deputies.
    Chairman Chaffetz. Whose decision is it if they see 
something visually, the Capitol Police, Chief Dine?
    Chief Dine. Mr. Chairman, as officers do every day, if they 
see something that is a threat to them or anyone else----
    Chairman Chaffetz. When did they see it?
    Chief Dine. They saw it seconds before it landed, as it was 
above the statue at Grant Circle.
    Chairman Chaffetz. And what was the decisionmaking tree at 
that point?
    Chief Dine. They go through their training in terms of 
threat and use-of-force training. And I believe they, in this 
instance, made the appropriate decision based on the manner in 
which it landed, the compliance of the pilot, and the distance 
from the building.
    Chairman Chaffetz. So we did have guns trained on it? They 
decided not to fire?
    Chief Dine. They made an instantaneous decision to do what 
they did and quickly arrest him, apprehend him----
    Chairman Chaffetz. As opposed to shooting it out?
    Chief Dine. Yes, sir.
    Chairman Chaffetz. You say in your written Statement that 
the caller from the Tampa Bay Times, presumably here, advised 
the Sergeant that Hughes' live feed could be seen on Hughes' 
Website, which he provided. You later said but it did not find 
the live feed noted by the individuals from the Tampa Bay 
Times.
    Why weren't you able to see it when so many others were? I 
mean, we had news organizations who were sending their 
reporters down there because they were watching it.
    Chief Dine. Yes, sir. Clearly, the media knew about this 
ahead of time. When we got that call and that one email, we 
immediately began to investigate. And minutes later he landed.
    Chairman Chaffetz. You told me last week personally that 
you would provide to me that email. Yet, we have not been 
provided that email.
    Will you provide this committee that email?
    Chief Dine. Absolutely. Yes, sir.
    Chairman Chaffetz. We have also asked to meet with the 
individuals who--I would like this committee, certainly myself, 
the ranking member, the House Administration, Candice Miller 
and her ranking member, to meet with the people who had their 
guns up ready to fire.
    Will you make those people available to us?
    Chief Dine. Absolutely. We can work through the United 
States Attorney's Office. Obviously, as you know, this case is 
under prosecution.
    Mr. Cummings. Will the chairman yield just for a second?
    Chairman Chaffetz. Yes.
    Mr. Cummings. When will we get the email that the chairman 
just asked you about? When will we get that? I thought we would 
have this by now.
    Chief Dine. I can provide it to you immediately.
    Mr. Cummings. That means right after this hearing?
    Chief Dine. Yes, sir.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. Last question before I turn it over to 
the ranking member.
    You say in your written Statement, Chief Dine, that due to 
the extremely short timeframe between the lockdown order and 
the direction to lift the lockdown, no messages were sent to 
the congressional community advising the lockdown.
    The gyrocopter landed at 1:23 p.m. You say later in your 
testimony the gyrocopter was determined to be clear of any 
hazards at 2:57 p.m. And, yet, it was 5:03 p.m. Before any 
notice went out.
    Why did it take so long?
    Chief Dine. You're absolutely correct, Mr. Chairman. We 
immediately fixed that. The next day I gave a directive to our 
people to put out messages to the entire community that affect 
the community.
    What no one got was a lockdown message. We did send some 
messages out to the Senate community based on their direction.
    But that matter has been fixed. We had an overly complex 
notification system, and we have immediately fixed that. And 
that will not happen again.
    Chairman Chaffetz. To the Sergeant at Arms, Mr. Irving, 
welcome back. I know you have had some duties there with the 
Prime Minister.
    But why didn't we get notification that there was a 
potential threat?
    Mr. Irving. Mr. Chairman, frankly, there was a mix-up in 
the Command Center, lack of communication between my staff and 
the Capitol Police command staff. That will not happen again, 
as the Chief said. We have fixed that. So we vow that that 
won't happen again.
    Chairman Chaffetz. I mean, they are the same people. They 
are in the same room. Correct?
    Mr. Irving. It is correct. They are all in the same room. 
And the notification should have gone out. It was an error. In 
most cases, the notifications do go out.
    We had had an incident the prior weekend. They were 
flawless. In this case, they were not. And we assure you that 
it will not happen again.
    Chairman Chaffetz. Thank you.
    I will now recognize the ranking member, the gentleman from 
Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chief Dine, I wanted to ask you about the Capitol Police 
and your current policies on when to use lethal force. The 
chairman and others have suggested that you should have shot 
down the gyrocopter. But others disagree, and you seem to 
disagree.
    This incident was not the first time the Capitol Police 
have had to make a life-or-death judgment call in a matter of 
seconds.
    In 1998, a deranged individual burst through the doors of 
the Capitol and shot and killed two Capitol Police officers. 
That was a tragic event, and I am certain that it is on the 
minds of every single Capitol Police officer who stands guard 
outside these doors.
    Chief Dine, do you believe that the shooting in 1998 
influenced how the Capitol Police handle threats of this nature 
today and when this incident happened?
    Chief Dine. Yes, sir. In fact, every threat that this 
agency and other agencies face ends up influencing the history 
of that agency and the policies that they put in place.
    Mr. Cummings. Well, can you please tell us what impact, if 
any, does that shooting in 1998 have on the policies used by 
the Capitol Police today? I mean, how did that affect it?
    Chief Dine. Well, we changed our security posture. And, of 
course, I would be glad to discuss that more in closed session. 
But we drastically changed our security posture throughout the 
Capitol in terms of methods and staffing.
    In this instance that we're talking about today, obviously, 
as in any instance where an officer has to make a split-second 
decision to use force or not to save their lives or others' 
lives, that's what officers are up against every day.
    In this particular instance, given all of the 
ramifications, some of which we discussed in closed session 
last week, I think they made the appropriate decision.
    But that's a challenge that officers face every single day, 
whether it's on one of their checkpoints, during a traffic 
stop, when they're stopping people around the campus, et 
cetera.
    Mr. Cummings. Without going into any classified 
information, tell me this.
    This incident that we are talking about today, has that 
caused you all to change anything about your policies with 
regard to shoot-downs or lethal force?
    Chief Dine. We have not changed anything yet, but it has 
caused us, like those other seminal moments that you 
referenced, to reexamine how we do business.
    Mr. Cummings. Now, about 2 years ago, in 2013, there was 
another incident. A woman drove onto the Capitol Grounds, 
fleeing law enforcement, and the Capitol Police shot and killed 
her. We learned later that the woman was mentally ill and that 
she was not armed and that she had a 1-year-old baby in the 
backseat of the car.
    Is that right, Chief Dine?
    Chief Dine. Yes, sir.
    Mr. Cummings. Now, while some praised the response of the 
Capitol Police, others criticized.
    Chief Dine, what impact, if any, did this incident, that 
is, this incident that I just talked about, have on your 
policies for using lethal force?
    Chief Dine. Ranking Member Cummings, as you know, that 
matter is under litigation. But I can tell you every time we 
face one of these instances it causes us to examine and re-
examine how we do business.
    And the fact of the matter is, during every one of these 
instances, it's that police officer on the street that has 
literally seconds to make a decision about whether their life 
is in danger or someone else's is in danger, and they do their 
best to make the best judgment at that time.
    Mr. Cummings. Now, it seems clear that, in both cases, the 
officers had to respond almost instantly, as you said, life-or-
death decisions.
    With respect to the gyrocopter incident earlier this month, 
some have suggested that the Capitol Police made a mistake by 
not shooting him out of the air.
    Keeping in mind that this is a public session, can you tell 
us generally what steps the Capitol Police took with respect to 
using lethal force against the gyrocopter pilot.
    Chief Dine. Yes, sir. Based on the circumstances of that 
day, literally seconds, having seen it, having observed it 
land, the manner in which it landed, the geography from the 
United States Capitol, the compliance of the pilot, and all of 
those kinds of things, as well as we discussed in closed 
session the ramifications which officers have to take into 
consideration as well when they're considering using lethal 
force, and the ramifications of that force and the impact it 
may have on others--all of those decisions are processed 
literally in a matter of seconds.
    And that is what happened in this case. And I believe their 
actions were heroic. They quickly approached, arrested the 
individual. We screened the vehicle as well K-9-wise and then 
used additional capabilities after that to make sure everybody 
was safe.
    Mr. Cummings. Just out of curiosity, is there simulation 
for these types of incidents in the training?
    Chief Dine. Well, frankly, that's something that we're all 
examining because, when airborne vehicles reach the point where 
they become a law enforcement issue versus a DOD issue--that's 
a phenomenon that we're all examining.
    Mr. Cummings. So you are saying--you didn't answer my 
question.
    That is not a part of simulation right now. Is that what 
you are trying to tell me?
    Chief Dine. Well, we have the capability to do what we need 
to do and take any vehicle down. I don't know that historically 
police agencies have practiced shooting at aircrafts.
    But that's something that is clearly under--but I want to 
make it clear we have the capabilities to do what we need to 
do. I do want to make that clear to the committee.
    Mr. Cummings. Just two more questions.
    There seems to be a suggestion that the Capitol Police 
should have just shot him down.
    Without disclosing any sensitive information, can you tell 
us whether the Capitol Police had an opportunity to take down 
the gyrocopter and, if so, why they didn't.
    Chief Dine. I would say in this instance the answer is no 
based on, again, the manner in which it landed.
    Mr. Cummings. You are saying no to what?
    Chief Dine. No, sir. They did not literally have the 
ability to do it based on height and its proximity to other 
people and all of the ramifications and how quickly it landed 
and then based on the whole decisionmaking matrix that I 
mentioned. But there's often a split second or so where an 
officer has to make that decision.
    Mr. Cummings. And last, but not least: Why do you say that 
the Capitol Police officers made the right decision? You have 
reiterated that over and over and over again, and I just want 
to know why you feel so sure about that.
    Chief Dine. Because they, in this instance--and each 
instance is unique when a police officer faces those kinds of 
challenges. Each and every one is totally unique with a unique 
set of circumstances.
    But in this one, given the timing, given the lack of 
information about any credible threat, given all of the 
ramifications that may have taken place had shots been fired, I 
believe they acted quickly, bravely, and heroically.
    Chairman Chaffetz. Before the gentleman yields back, I have 
to ask you a question.
    I have asked you directly in closed doors and in here 
whether or not you had somebody with a gun trained on these 
people that could take him out of the air. And, yet, when Mr. 
Cummings asked that same question in a different way, you say 
no. You told me yes.
    What is it?
    Chief Dine. We clearly have officers out there with 
weaponry that are----
    Chairman Chaffetz. In this instance, with the gyrocopter 
coming at the Capitol, did you--and it may have been brief. 
Believe me, I understand you didn't get much advance warning.
    Chief Dine. Right.
    Chairman Chaffetz. But did you or did you not have guns 
trained on this gyrocopter to take him out of the air if he had 
continued to fly on?
    Chief Dine. They trained guns on him----
    Chairman Chaffetz. No. No. No.
    Did they have guns on him in this instance? Yes or no.
    Chief Dine. As he was landing.
    Chairman Chaffetz. So he was in the air?
    Chief Dine. As he landed. I would say as he landed.
    Chairman Chaffetz. This is why we have got to talk to the 
people who are actually----
    Mr. Cummings. Yes.
    Reclaiming my time just very quickly, how far was he from 
the ground? Picking up on where the chairman left off, how far 
was he from the ground, if you know, when the Capitol Police 
had an opportunity to shoot him down?
    Chief Dine. I believe the officer first saw him when he was 
right above Grant statue, which was literally right atop Grant 
statue, which is seconds from when he landed.
    Mr. Cummings. Very well.
    I yield back.
    Chairman Chaffetz. We need further clarification of that.
    I now recognize the gentleman from Florida, Mr. Mica, for 5 
minutes.
    Mr. Mica. Thank you, Mr. Chairman and Ranking Member, for 
holding this meeting.
    What we have experienced with this incident is, again, 
another horrible communications failure of the system, and this 
isn't new.
    The ranking member just cited back in October 2013 we had 
the deranged individual, a woman, who actually backed into 
someone at the White House, came across the entire distance of 
downtown, metropolitan D.C., went through the barriers, and the 
communications failed.
    Chief Dine, I wrote you on October 8, right after that. I 
said, ``We all appreciate and commend your actions. I am 
contacting you to request your response about concerns that 
were highlighted in this tragic act.''
    No. 1, it is my understanding the Secret Service, Capitol 
Police, Park Service, and District of Columbia Police, and 
other agencies have interoperable communications.
    You know, when I raise this, there are other things here. 
We spent a quarter of a billion when we did the Capitol Visitor 
Center in redoing bollards and all of the things after 9/11, 
and that failed. Those communication systems failed. Now, they 
failed again.
    I am stunned. I am still--this is how we get a warning. OK? 
This device still has not gone off to this instance. My office 
is right down the hall here. My desk faces out. So I could look 
at the Capitol lawn.
    I am sitting there at 1:20 watching what is coming down. 
And I am on the phone, and I look and there is a police vehicle 
not on the road, not on the path, but coming up the grass. 
There is another officer with, I mean, a pretty powerful 
weapon.
    I have got pictures of it. We snapped some of the pictures 
of it. I said to the staff, ``I don't know what is going on, 
but something's coming down.'' Well, we never heard a thing.
    This is the first communication that I got. Let me get the 
exact communication. What is the date here? Well, actually, it 
wasn't until 5:02. There was no notification. This is a message 
from the Sergeant at Arms. ``The Capitol have cleared the 
police activity.'' We never knew what was coming down.
    Now, granted, a week before, on Saturday, the 11th, we had 
incredible notice. It was Saturday. Were you here, Mr. 
Chairman? No. Was anyone here? No one was here.
    It was a serious situation. Someone ended up, we found out, 
committing suicide. It worked very well. This thing went crazy. 
My annunciator went crazy. I got lots of notice.
    But it is working some of the time, not all of the time. 
Isn't that right, Chief Dine?
    Chief Dine. It now will work all the time, sir. And your 
point is well taken.
    Mr. Mica. Well, again, I don't think I got a response from 
you. I asked the staff, ``Where is my letter to Dine from the 
last incident?''
    You know, a lot of people around here wanted to sweep this 
under the table. It was an embarrassing situation. But it can't 
happen again.
    Mr. Huerta, FAA, a gyrocopter can lift how many pounds?
    Mr. Huerta. A small gyrocopter of this----
    Mr. Mica. 254 pounds. Right?
    Mr. Huerta. Its weight is about 250 pounds.
    Mr. Mica. But it can lift, I think, that much. It falls 
into a category.
    So you can have a 200-pound individual, right, flying it, 
we will say?
    Mr. Huerta. Yes.
    Mr. Mica. So what capacity does that leave? 50 pounds?
    Mr. Huerta. It is a very small capacity.
    Mr. Mica. Mr. Clancy, no one knew what was on that 
helicopter. You guys didn't know, did you? Did anyone know what 
was on the helicopter?
    We were told some time ago, but nobody connects the dots. 
But we didn't know whether it was letters to the Congressmen or 
we didn't know whether it was, in fact, 50 pounds of plastic 
explosive.
    Mr. Clancy, what would 50 pounds of plastic explosive do to 
the Capitol building? It would be pretty----
    Mr. Clancy. It would be devastating.
    Mr. Mica. Devastating.
    Nobody knew--wait a second, too. I just heard today you 
said the FAA domestic network was notified. What time? It went 
up on the FAA domestic network. Who knows when that was? Huerta 
or Clancy?
    Mr. Huerta. About 1:34 in the afternoon.
    Mr. Mica. That was afterwards?
    Mr. Huerta. After it landed.
    Mr. Mica. After it landed.
    So there is something wrong there on the domestic FAA 
notice. There is something wrong with the notice with the 
Capitol Police.
    At 1:23 you had the guy under arrest. We never knew. I 
mean, I am not afraid. I have been here through 9/11. If they 
want to take me out, take me out. Give me a chance. Give our 
staff a chance. Give us notice. Make this thing work. OK?
    Again, I don't think it is too much to ask that we get this 
thing right. And there is a lot at stake, not just saving 
Members of Congress.
    We have got new threats. And I brought up the drone before 
the drone landed on the White House, the White House. They 
still don't have--we had another jumper, didn't we, Mr. Clancy, 
just recently?
    Mr. Clancy. Yes, sir, we did.
    Mr. Mica. How long before we get the fence increased? I 
told you I got the name of a great welder. He has welded my 
fence in Florida. I will get him up here. I've got the name of 
ADT. We can get them in here to put in systems.
    But we still don't have the fence secure there, do we? It 
is not heightened. You can still jump over the fence. How long?
    Mr. Clancy. Sir, in the summer. The attachment will be 
attached this summer.
    Mr. Mica. OK.
    Yield back the balance of my time.
    Chairman Chaffetz. Thank the gentleman.
    I will now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Mica. Mr. Chairman, before you do that, this letter has 
to be in the record at some point. This is my letter to Chief 
Dine from some time ago.
    Chairman Chaffetz. Ask unanimous consent to do that. 
Without objection, it is ordered.
    Mr. Mica. It is the only email I got at 5, after it was all 
over.
    And one more thing. Would you yield for just a second for 
the benefit of members.
    I sent you back--and I was told afterwards the staff said 
you didn't get it. ``I have searched my messages to see if an 
alert was sent out on this incident. Was one sent? Congressman 
John Mica.'' The staff told me we can't respond to you, that 
you only send these alerts out.
    So I sent this out the same day after the--well, the day 
after the incident, finding out if anything had been sent, and 
I missed it. But there is no way for us to contact you. We need 
a way to contact you.
    Thank you.
    Chairman Chaffetz. Thank the gentleman.
    We are going to recognize, I guess, the gentlewoman from 
the District of Columbia, Ms. Norton, first for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    This is an important hearing. You can't have an incident 
like this and not have a hearing. And I know that witnesses 
understand this. I certainly appreciate the work they do.
    And I think, essentially, gentlemen, the problem you are 
facing is getting ahead of risks and threats that may be 
unbelievable, but that is what the Congress and, for that 
matter, the public expects you to do.
    I mean, we are fortunate that that gyrocopter didn't have a 
chemical or an explosive in it. And, of course, we know that 
you knew it did not. And we know--and this is why I have 
question first for Mr. Huerta.
    I believe we know that it was not possible for existing 
technology that keeps the violation of an airspace--that we can 
go, we can catch a helicopter, we can catch a small plane.
    But, technically, do we have the technology to capture 
``wigamadoos'' that fly below that airspace that is more 
typical?
    Mr. Huerta. Congresswoman Norton, what the FAA provides to 
the surveillance capability is radar feeds. And radar that the 
FAA uses for our purposes to separate air traffic is filtered 
to ensure that a controller is able to safely separate traffic 
transiting the region's airports and the region's airspace.
    This very small aircraft flying through is not something 
that a controller would ordinarily pick up in the course of 
carrying out their aircraft separation activities.
    Ms. Norton. So, you see, I am not going to ask law 
enforcement on the ground to do the impossible, but I am going 
to ask law enforcement on the ground to tell us ahead of time 
what the impossible is.
    I mean, we are asking you to do Star Wars-type thinking 
about who could fly like you fly a kite. And if we don't think 
about it, we know who will be thinking about it. So I am 
interested in separating out what is technically possible and 
what is technically not possible.
    And I want to know, Mr. Huerta, why Congress hasn't been 
asked for the capability to fly below that usual airspace 
where, by the way, if anybody gets into that airspace, we send 
National Guard planes up in the air right way, instantly.
    If we don't have the ability to do something tantamount to 
that, then the only people who really know it, who can get 
ahead of the game for us, are those of you who are on the 
ground who don't have that capability.
    And we, therefore, have to think about risks that only law 
enforcement, frankly, has the capability to envision. And I 
want to know why the Congress hasn't been asked for the means 
to provide that capability.
    Mr. Huerta. Congresswoman Norton, what I was referring to 
is the FAA's surveillance capability that is provided to this 
whole government effort. But the entire government surveillance 
network is not limited to that, and I would defer to my 
colleagues from DOD.
    Admiral Gortney. Ma'am, I'm prepared to answer that 
question for you, the investments that Congress has made, but I 
need to do that in a closed session.
    Ms. Norton. Thank you.
    It would be very important for Congress to know can we do 
it. To say to people on the ground to do it, as Chief Dine 
says, you see it in a few seconds, take it down, that is not 
what happens if I try to fly a helicopter into the airspace.
    So I want to give you the same capability the same time 
that those who have tried to pierce our airspace have found 
they just can't do it so we don't see you having to shoot down 
much up there because you have the technology to do it. And in 
closed session, we need to know that, and we need to know it 
now.
    And one of the reasons we need to know it now is the first 
thing I find that officials do when they don't have the 
capability is they keep the public out. They say, ``We know how 
to make sure nobody gets hurt. Nobody gets in.'' And I am not 
accusing you of doing that, but I have to tell you it has been 
often the first reflex.
    We seem to work on a case-by-case basis. Now we know 
probably that Chief Dine, that our police officers--because he 
said they saw it only a few seconds and then they had to get 
themselves together. But the case-by-case way to go at security 
assures us that there will be a terrible thing to happen and 
then we will take care of it.
    So what I am trying to find out is if we can get the 
capabilities before you have the obligation even to do 
something about it because it hasn't occurred yet. And I will 
be interested in that in closed session.
    But I am interested in closing down the Capitol. When 
anthrax occurred, I had to go on the House floor and literally 
embarrass the police to get the Capitol open. It was closed for 
months because the Capitol Police couldn't think of a way to 
keep it open.
    It was terrible to have the Capitol itself closed. And I 
want to make sure--I have seen no evidence that the Capitol is 
being closed, that those grounds are being closed, and I want 
assurance that that is not taking place.
    Chairman Chaffetz. Thank the gentlewoman.
    Does anybody care to comment on that?
    Ms. Norton. Could I have an answer at least?
    Chairman Chaffetz. Sure.
    Ms. Norton. Can people still go where they were able to go 
before, Chief Dine?
    Chief Dine. Yes, ma'am. The Capitol is open right now.
    Ms. Norton. Thank you very much.
    Chairman Chaffetz. Recognize the gentleman from Michigan, 
Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here. I think we all 
understand you have to be right all of the time. They have to 
be right once. And so we appreciate the fact of what you deal 
with. I just have relatively few questions that could be asked 
without going into some closed session.
    But, first of all, to Director Clancy, I am having a hard 
time wrapping my mind around the fact that Secret Service had 
the recognition of this gentleman and his intentions to fly 
here and to land, as I understand it, on the Capitol sometime 
before, in 2014, in fact, early 2014, and that Secret Service 
interviewed Mr. Hughes based on some information he was putting 
out back in August, September, and October 2013.
    So with that in mind, with that lead up to it, plus the day 
of the flight there was also phone calls made from the Tampa 
newspaper to Secret Service, my question is: Did the Secret 
Service share all the information that it should have with 
other relevant law enforcement agencies with responsibility for 
the D.C. Airspace?
    Mr. Clancy. Yes, Congressman. On October 4, our Denver 
field office did get a call from an individual who knew of Mr. 
Hughes' plan. This is October 2013.
    We relayed that information to our partners at Capitol 
Police, and that day we also--that following day we went and 
interviewed that individual to get more details. As we got more 
details, we realized that Mr. Hughes, the subject here, lived 
in Tampa Bay.
    We sent our Tampa Bay office agents down there to interview 
him. He denied any interest in any of our protectees, denied 
any interest in the White House, and he had no indication that 
he would be flying up into the Washington, DC, area.
    We did do additional interviews with additional associates 
who corroborated the first call that we received in Denver that 
he did have some aspirations to do this. But, again, there was 
no indication that any of our protectees or any of our 
protected facilities were--that he had the intent to do this. 
But we did share the information.
    Mr. Walberg. But you shared it with them.
    So, Chief Dine, you had that information back in early 
2014, that there was an individual of interest, at least, that 
had some idea to fly and bring letters to Congress in a very 
unusual way?
    Chief Dine. Yes, sir. The Secret Service shared that 
information with us. Yes, sir.
    Mr. Walberg. What did Capitol Police know about Mr. Hughes 
and his intentions prior to him landing on the Capitol Grounds 
subsequent to getting this information? What else came through 
that should have highlighted something happening?
    Chief Dine. Subsequent to that case being essentially 
closed or suspended by us and the Secret Service, nothing up 
until minutes before he landed. As I had mentioned earlier, we 
got a fairly cryptic email and a phone call that was not date-
or time-specific, talking about whether or not--were we aware 
of this and whether or not he had a permit. That was literally 
minutes before he landed.
    Mr. Walberg. But April 15, as I am seeing a time line here, 
an individual made a call to Secret Service's Tampa field 
office to warn of Hughes' plan.
    Was that information shared with you?
    Mr. Clancy. Sir, on October 15, we received a call from an 
individual who did not give any time or date or specifics 
regarding----
    Mr. Walberg. This was April 15 that I have here.
    Mr. Clancy. April 15. Yes, sir.
    Just an individual had called our Tampa Bay office and 
asked specifically for a specific agent, and we said the agent 
is no longer assigned to the office. And this individual said, 
``Well, just let him know I called.'' There was no specifics to 
Mr. Hughes or to this flight.
    Mr. Walberg. So the Tampa Bay Times, then, reporter called 
Secret Service on April 15 at 1.
    Mr. Clancy. That's correct, sir.
    Mr. Walberg. He landed at 1:23. So we have got 23 minutes 
still.
    Let me ask Chief MacLean to join in here as well.
    Was there any notification of all the entities that 
someone, indeed, is starting this flight, is on his way, he is 
live-streaming it, he may be coming over your territory? Is 
there any action that can be taken even with the Park Service 
in stopping someone flying low?
    Chief MacLean. To answer the first part of your question, 
the United States Park Police did not have any actionable 
information--let me correct that--no information regarding Mr. 
Hughes coming to this area prior to our officer patrolling 
witnessing the aircraft.
    Mr. Walberg. Well, Mr. Chairman, I guess it leaves me with 
great concern that, when information is given, crackpot or 
otherwise, and then the day that the event takes place we had 
information that is given and still this person is able to make 
it all those miles and, more importantly, across the restricted 
airspace, coming across our monument area, leading up to our 
Capitol itself and then lands, and nothing happens until this 
person is on the ground.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I thank the ranking member.
    This is not good. I mean, this is on top of a lot of other 
incidents that we have been talking about at the White House as 
well.
    You know, I get the feeling that, just as before 9/11, if 
you visited an airport in the United States, we had very little 
security going on. Yet, if you visited Ben Gurion Airport or 
Leonardo da Vinci Airport or Heathrow, those countries had 
dealt with terrorism before us and they were all tooled up. 
They were ready. They had heavy weapons. They had metal 
detectors.
    And, yet, we were lulled into a false sense of security. I 
get the sense that we are behind the curve again. You know, you 
visit any of these--the committee's involved in hardening our 
facilities overseas. And you go into any major capital in 
Europe or the Middle East or Africa and they are taking 
precautions that we are not.
    And I know there is a balance between public access and 
security, but we have gotten to the point where I am worried 
about the President. I am worried about his family. I am 
worried about the security on the grounds here at the Capitol. 
I am worried about the Supreme Court across the street.
    And I just have to say that we had advanced notice, albeit 
you had to connect the dots and you had to talk to each other. 
This was not good, that a fellow was able to fly in here and 
land a gyrocopter on the lawn. It is not good. And I know we 
have got a bunch of reasons why it happened, and it seems like 
we have got some excuses. But that is just not good enough.
    And I have a lot of respect for the panel individually. And 
I don't know if it is a lack of communication between 
departments, but we have got to do better. Dear God, we have 
got to do better.
    Since this guy landed the gyrocopter on the lawn, is there 
anything that we have done that we would do differently if that 
were to happen today and someone with nefarious intent, a 
terrorist, were to do the same damn thing? Anybody? OK.
    So we are doing basically the same thing that we were doing 
when this guy did his thing. We need change. We need change.
    And I don't know--you know, Mr. Clancy, I have got enormous 
respect for you and the job that you do. I really do.
    But can you tell me what you need to make the White House 
safe, the Capitol safe, the Supreme Court safe, with respect to 
the airspace that you are charged to guard.
    Mr. Clancy. Yes, sir. Before I address that, I would just 
like to say, in this particular incident, we believe--and this 
is a team effort, certainly among the members here on the 
panel, but certainly among the American people, too. And the 
Department of Homeland Security has this initiative for see 
something, say something. And we feel very strongly that 
Americans need to----
    Mr. Lynch. But people said something. People said 
something. A few people said something. And we all saw 
something. And some of your colleagues saw things or their 
employees saw things. And this still went forward, right to the 
door of the Capitol.
    That is what gets me. And there were a lot of the public 
that were, you know, exposed to potential danger, people 
bringing their families here. So it is not just, you know, 
self-preservation here among Members of Congress. We are 
worried about the general public as well.
    Mr. Clancy. Yes, sir. And you're exactly right, sir.
    I think if, for example, the Tampa Bay Times had informed 
us prior to departure of this aircraft, we could have had a 
response team at Gettysburg or law enforcement would have. Or 
if we were notified a day in advance, days in advance, we could 
have had law enforcement down in Florida. So I think that's 
part of that team effort.
    But in terms of your second question, sir--I'm sorry.
    Mr. Lynch. Well, look, if your officers are on the ground 
or your agents are on the ground and they see--what are the 
orders--just at a very basic level, what are the orders for a 
Capitol Police officer or a Secret Service agent that there is 
an object flying toward the Capitol? Are we still stand and 
watch? Are we still passive or are they under orders to do 
something?
    Mr. Clancy. Sir, for the Secret Service, I'll just say 
that, first, it's communication and then we take a defensive 
posture.
    We rely on the radar that we see and the communication to 
take a defensive posture if we need to move any of our 
protectees or any of the guests by our protected facilities. So 
that's our first move, cover and evacuate.
    Mr. Lynch. That doesn't work very well with a suicide 
bomber or something like that, though. I mean, obviously, you 
shelter in place to the degree you can, but----
    Mr. Clancy. Yes, sir.
    Mr. Lynch. I don't know. I just think maybe we have got to 
talk about this more in a classified briefing. But this cannot 
stand.
    I yield back.
    Mr. Cummings. Will the gentleman yield?
    Mr. Lynch. Sure.
    Mr. Cummings. Thank you very much.
    I have got to ask you this. This is getting to be very 
painful.
    Mr. Clancy, you said that it is a team effort. I agree. But 
the gentleman just asked a question, and the silence was 
chilling.
    He asked a question--and I am talking to all of you now--
are we doing--and I just--if it is classified information, tell 
us, and we will deal with it. But I do need to know a yes or 
no.
    Have we done things now that put us in a better position 
than where we were on the day of this offense? And I don't want 
silence. It is not good enough.
    Chief Dine. Sir, the answer is yes. And I would be glad to 
discuss that in a closed session.
    Mr. Cummings. And has that been a team effort?
    Chief Dine. Yes, sir.
    Mr. Cummings. Very well. Thank you.
    Chairman Chaffetz. I now recognize the gentleman from North 
Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    So let me pick up on this team environment. Prior to this 
incident, how many times have all of you met as an agency to 
discuss new technology that may be a threat to the Capitol or 
the White House or to other assets? How many times have you all 
met together prior to this incident to discuss that?
    Mr. Salesses. Congressman, if I can take that, 
individually, I can't say that we have all met frequently at 
all. But there is a lot of working done among the Federal 
departments.
    Mr. Meadows. So it is not frequent. So how often? How many 
times have you done it, where all of you have gotten together? 
You are the team. You talk about the team. Now, we know a lot 
about teams. The Bad News Bears were a team, too, and they 
didn't do real well.
    Mr. Salesses. But, Congressman, if I could, our staffs work 
together.
    Mr. Meadows. So have your staffs all been in a room to 
discuss that prior to this incident? And, if so, how many 
times?
    Mr. Salesses. Sir, first of all----
    Mr. Meadows. Do you know how many times?
    Mr. Meadows. Do you know how many times?
    Mr. Salesses. Yes, sir. That is twice-a-month meetings with 
our staff.
    Mr. Meadows. To discuss the technology and what is 
different?
    Mr. Salesses. Yes, sir. And, if I could, I'd like to just 
take a little--what has been going on, Congressman, is there is 
a national effort. The National Security Staff has been leading 
an effort over the last year to look at UAVs in particular, 
what we refer to as nontraditional aircraft, whether they are 
gyrocopters, UAVs or----
    Mr. Meadows. So you just haven't come up with an answer?
    Mr. Salesses. No. No, sir. I want to----
    Mr. Meadows. But we can put a man on the moon. We can fly a 
rover to Mars.
    Can't we figure out how to stop a postal worker with a 
gyrocopter coming in to the grounds?
    Mr. Salesses. Sir, the work that is being done between the 
Department of Homeland Security, the Department of Defense, the 
Department of Transportation, and recently the National Science 
and Technology Council fast-track looking at technologies that 
could help. Again----
    Mr. Meadows. So when will we have a plan? Admiral, when 
will we have a plan? You said you are the guy in charge. When 
will we have a plan to make sure that this doesn't happen in 
case there is 50 pounds of plastic explosives?
    Admiral Gortney. Sir, when we go to closed session, I will 
show you what we have, what we are testing, and when we will--
--
    Mr. Meadows. I am not asking what the plan is. I said when 
will we have it.
    Admiral Gortney. Sir, I need to do that in a closed 
session.
    Mr. Meadows. All right. So let me ask you a different 
question. Because the silence a deafening.
    So if you get together twice a month, your staff, how many 
times have most of you or all of you gotten together to discuss 
your responses to this hearing? Did you meet as a group to 
discuss your responses to this hearing?
    Mr. Salesses. Yes, sir, we did. Yesterday. Yes, sir.
    Mr. Meadows. So what you are saying is you all got together 
to discuss your response to this hearing, but, yet, you all 
don't get together necessarily individually, your staffs do, to 
discuss the protection of assets here?
    Mr. Salesses. Congressman, we also----
    Mr. Meadows. Yes or no?
    Mr. Salesses. No, sir. We do at the White House. We have 
deputy-level meetings and----
    Mr. Meadows. So all of you got together to discuss your 
responses to this hearing? When did you do that?
    Mr. Salesses. Yesterday, sir.
    Mr. Meadows. Why would you do that? If you were just 
wanting to be transparent, why would you try to coordinate your 
answers to this hearing? Are you more afraid of the Government 
oversight than you are of protecting the people?
    Mr. Salesses. No, sir, we are not.
    Mr. Meadows. So why would you have gotten together to 
discuss you responses if they were individual responses there?
    Mr. Salesses. To talk about some of the lessons we learned, 
sir.
    Mr. Meadows. Talk about the lessons before you testify? Is 
that what you were doing----
    Mr. Salesses. No, sir.
    Mr. Meadows [continuing]. Preparing your testimony?
    Mr. Salesses. No, sir. We were talking----
    Mr. Meadows. So none of you prepared your testimony.
    Mr. Clancy, is that your sworn testimony today, that you 
didn't talk about how you would testify before this hearing?
    Mr. Clancy. Sir, we did talk about what we could talk about 
in the open hearing as opposed to a closed hearing, and we 
wanted to make sure----
    Mr. Meadows. So was there any strategy to those discussions 
on what you would say and what you wouldn't say in terms of how 
you would look, Mr. Clancy, before this hearing?
    Mr. Clancy. Sir, the discussion was, again, what could be 
talked about in the open hearing and what could not be talked 
about in the open hearing.
    Mr. Meadows. Well, my understanding is that it was a lot 
more strategic than that.
    Am I wrong, Mr. Huerta? You and I have a good relationship, 
an honest relationship. Was that discussed in terms of what you 
would say and what you would not say in terms of response to 
the questions?
    Mr. Huerta. No, it was not.
    Mr. Meadows. All right. So what was discussed?
    Mr. Huerta. I think, as you've heard from these other two 
gentlemen, it was simply a discussion of what could be said in 
open versus----
    Mr. Meadows. What I find very concerning, Mr. Chairman--
what I find very concerning is all of you are willing to get 
together to discuss your testimony before coming here to be 
honest and, yet, the American people expect just honesty and, 
yet, what we have is a coordinated effort to be a stone wall. 
That is concerning, Mr. Chairman.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I need to add--and I said it in my opening--when we asked 
you all to come privately brief four committees of Congress, 
more than half of you said no. I don't understand that. I 
really don't understand that.
    You can sit here in public testimony and say, ``We are 
doing everything we can.'' This is the way our system works. It 
is inexcusable to me that you would refuse to come to Congress 
a week after the attack and give us a brief. Three of you did, 
but four of you didn't. And that is why you get questions like 
that, because the time you did get together, nobody was in the 
room.
    Sounds like you all coordinated on how to message this and 
you spent more time doing that than you did briefing Congress, 
being candid with us.
    I now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I thank also my colleague from Massachusetts, and I wish to 
associate myself with his remarks.
    He talked about that this is not a question of self-
preservation for Members of Congress. We think about not only 
ourselves, but we think about the people who come to visit us 
from our districts. We think about the young people who help 
enable us to do the work that we do. We are talking about 
thousands and thousands of young people, interns and fellows 
and employees on Capitol Hill here, and we feel responsible to 
them and their families and their parents to keep them safe.
    All of these people are within the special flight rules 
area, the SFRA, that you have discussed. They are all within 
the national capital region flight area that you have been 
talking about. And, more than that, the visitors who come and 
visit our national memorials, the World War II Memorial, the 
Jefferson Memorial.
    We just had the National Cherry Blossom Festival a couple 
of weeks ago. There had to be well over 100,000 Americans 
visiting. All of those areas and the Tidal Basin are within the 
special flight rules area; are they not? That is correct. An 
area that was traversed by this knucklehead with a gyrocopter 
who could easily have been a terrorist.
    And so we take seriously a hearing like this. It isn't 
about ourselves. It is about the huge number of Americans who 
are in this special flight rules area and the national capital 
region. And it is not just about gyrocopters either. It is 
about drone as well. We have heard a lot in the past months 
about drones and the threat they could cause to our national 
security.
    You know, Admiral Gortney, your testimony was--you said 
this: What we now understand is that the gyrocopter was 
detected by several of the integrated sensors as it approached 
and transited through the SFRA, the special flight rules area. 
However, the aircraft's flight parameters fell below the 
threshold necessary to differentiate aircraft from weather, 
terrain, birds, and other slow-flying objects so as to ensure 
that the systems and those operating them focus on that which 
poses the greatest threat.
    You said: We are in the early stages of conducting a 
thorough reconstruction and analysis of all aspects of this 
incident, including time lines, communication, and sensor data.
    And you said: Identifying low-altitude and slow-speed 
aerial vehicles from other objects is a technical and 
operational challenge.
    Have I read that correctly, Admiral?
    Admiral Gortney. That is correct, sir. And I can go into 
greater detail in answering some of those questions in closed 
session.
    Mr. Cartwright. Well, here is my problem. Like my 
colleagues up here on the dais and the public, I find the lack 
of planning on how to respond to gyrocopters and drones 
surprising and disappointing. These things are hardly new. The 
British Army flew a drone as early as 1917. And here we are 
nearly 100 years later and we are just starting to tackle the 
problem.
    I want to invite Mr. Huerta--your attention to this 
question: When did the FAA first begin to think that drones may 
be a security concern?
    Mr. Huerta. Well, the FAA has specific direction from 
Congress to swiftly integrate unmanned aircraft into the 
national airspace system. That was included in the FAA 
Authorization Act of 2012.
    Since then, we have published a road map for their 
integration and we have embarked upon a stage integration 
process to find ways to integrate these into the national 
airspace system.
    But we do cooperate with our interagency partners on the 
larger question of what they may pose as a security threat. Our 
mandate and our direction is to find a way to integrate them so 
that they don't pose a safety of flight issue.
    Mr. Cartwright. Well, back to you, Admiral Gortney.
    You said: Identifying these vehicles is a technical and 
operational challenge. ``Challenge'' is a nice word for 
``problem,'' something that we are really having a hard time 
with.
    So the question is: How long have you known this was a 
challenge, Admiral?
    Admiral Gortney. Sir, we've been working against the low-
radar cross-section target for probably over 25 years. I've 
been in the aviation business for over 38. So we understand the 
problem. We understand the technical challenges.
    And if we go to closed session, we can show you the 
solutions that we have in place and we are currently testing, 
but I can't do it in an open session.
    Mr. Cartwright. On a scale of 1 to 10, 10 being the most 
urgent, how urgent is this, gentlemen?
    Mr. Salesses. Very.
    Admiral Gortney. In the protection of the United States and 
Canada and the homeland defense and my role as the NORAD 
commander, it is my primary responsibility. On a scale of 1 to 
10, it's on about a 50.
    Mr. Cartwright. I look forward to the closed session. Thank 
you.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from South Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    I am going to go about this a little bit differently, a 
little bit more straightforward.
    At any time did we have the ability to interdict and to 
shoot this guy down? Mr. Gortney? Admiral?
    Admiral Gortney. No, sir. We did not because we did not 
have a detection, our ability to track it or positively 
identify it to queue our sensors. If we had--I can't go any 
farther.
    Mr. Mulvaney. That is fine. That is fine. I obviously don't 
want to know anything that we can't do in public session. I am 
just curious.
    Admiral Gortney. But I have that answer for you.
    Mr. Mulvaney. We hear around here that we had the ability, 
but chose not to.
    But you telling me that is not accurate?
    Admiral Gortney. I need to go to closed session.
    Mr. Mulvaney. Thanks very much.
    So, then, I guess the same answer regarding, if the 
gentleman had wanted to, he could have crashed this into the 
Capitol building. Correct?
    Admiral Gortney. Yes, sir.
    Mr. Mulvaney. And the same is true for the White House or 
the museums?
    Admiral Gortney. If there was an intent, yes, sir.
    Mr. Mulvaney. Would it have been different if it was a 
small single-seat airplane?
    Admiral Gortney. Yes, sir. A small single-seat airplane, 
the size of a Cessna or smaller, we'd probably be able to track 
that.
    Mr. Mulvaney. Got you.
    Admiral Gortney. We would--we do it every--we track them 
and we have two incidents a month where we actually launch our 
helicopters on those sorts of things.
    Mr. Mulvaney. OK. A similar result had it been a drone or 
something smaller than a gyrocopter?
    Admiral Gortney. That's correct.
    Mr. Mulvaney. Who saw it first?
    Mr. MacLean. An officer with the United States Park Police 
saw it first.
    Mr. Mulvaney. And it is fair to say that you were the only 
one at the table who didn't know about this guy in advance. 
Right?
    Admiral Gortney. We did not.
    Mr. Clancy. The Secret Service did not.
    Mr. Huerta. We did not.
    Mr. Mulvaney. NORAD didn't?
    Admiral Gortney. We did not.
    Mr. Mulvaney. OK. So the Secret Service knew.
    Who else knew about this guy in advance, then? Park, 
Capitol Police. But the Park Police did know about the guy. OK.
    Let me figure out why he left from Gettysburg. Given that 
any thought? Why would a guy drive from Florida to Pennsylvania 
to do this? Does anybody have any thoughts on that? Does that 
make sense to anybody? There is a lot of private airports, 
small airports, between Florida and Gettysburg.
    Admiral Gortney. I think with an ongoing investigation, 
both legal and technical, it is difficult for us to answer that 
question.
    Mr. Mulvaney. Fair enough. All right.
    Here is my last question, then. Because it sounds like most 
of the stuff I want to know we will have to deal with in closed 
setting.
    Admiral Gortney, were you advised not to come here today? 
Did anybody suggest to you not to come here today?
    Admiral Gortney. No, sir.
    Mr. Mulvaney. Did anybody suggest that you not come to the 
briefing a couple weeks ago?
    Admiral Gortney. We were seeking permission and did not 
receive the permission. Why that happened I'm not sure, sir.
    Mr. Mulvaney. From whom do you seek permission for that, 
sir?
    Admiral Gortney. We go through the Department of Defense.
    Mr. Mulvaney. And who would the next person up the ladder 
from you be in that----
    Admiral Gortney. My chain of command goes from myself to 
the Secretary of Defense to the President.
    Mr. Mulvaney. OK. Mr. Salesses, the same question.
    Mr. Salesses. Sir, I don't have a good answer for why we 
didn't show. And I apologize for not showing. Because that's 
not something the Department normally does.
    Mr. Mulvaney. Did you seek permission to show and just----
    Mr. Salesses. I was not aware that you were trying to 
have--me personally, I was not aware of it.
    Mr. Mulvaney. OK. Mr. Huerta?
    Mr. Huerta. We were--I understood it to be a scheduling 
issue. We had offered an alternative time the following 
afternoon, and we did not hear back.
    Mr. Mulvaney. Mr. Clancy, I think you were one of the ones 
who did agree to come. Right?
    Mr. Clancy. Yes, sir.
    Mr. Mulvaney. With that, I will yield my time to the 
chairman.
    I guess we ask Mr. MacLean and Chief Dine the same 
question, but I assume I know the answer there.
    So go ahead, sir.
    Chief MacLean. Yes, sir. I'm an employee of the United 
States Department of the Interior. And they were planning to 
schedule a properly--a proper witness to come and attend, and I 
did attend the following day.
    Mr. Mulvaney. OK. Chief Dine?
    Chief Dine. Yes, sir. I was here last week. And, of course, 
I am glad to be here today.
    Mr. Mulvaney. I yield the balance of my time to the 
chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I want to look at the time line again and make sure that I 
am clear on it. But let me back up just for a second.
    How many different agencies or departments were contacted 
at some point past or during the week of by the Tampa Bay Times 
reporter? Just by a show of hands, who did he reach out to at 
any point? Secret Service? OK.
    Chief Dine, when did you first get contacted by the Tampa 
Bay Times?
    Chief Dine. That same day, a few minutes before he landed.
    Mr. Walker. When you say ``a few minutes before,'' is that 
the 1 p.m. Timeframe again?
    Chief Dine. Well, 12:59. Yes, sir. And then at 1 p.m.
    Mr. Walker. 12:59. And he lands at 1:24, 1:22?
    Chief Dine. 1:23-ish.
    Mr. Walker. 1:23.
    So can you walk me through what you did in those 22, 23 
minutes. Can you sort of give me a time line. What is your 
first call? Just for my own education here.
    Chief Dine. Yes, sir. 12:59 was the email. That email was 
quickly sent to our Investigative Division, who began to try to 
pull up information. Then a minute later he called our Command 
Center. They talked to him a little bit. And then that 
information was provided to our investigators as well.
    Mr. Walker. When you say provided to your investigators, 
what--when you have somebody that is approaching the Capitol in 
this unidentified flying object, for lack of a better 
expression, what do you do when you hear that information, that 
this is something that could be encroaching into the airspace? 
What happens? What is your next step?
    Chief Dine. Well, what happened in this case was there was 
no information that this was happening as they spoke or that it 
was imminent. There was no time or day provided.
    What they did do was do some research into the individual 
himself and, also, check to see--one of the questions was was 
there a waiver provided. So we have a system to access that as 
well.
    Mr. Walker. So are any of these agencies that you contact 
once you hear that this is a possible situation--is there any 
communication between the different departments or agencies 
that this is a concern?
    Chief Dine. In this instance, we contacted the NCRCC once 
it came to fruition.
    Mr. Walker. Mr. Clancy, you said you got information on 
this as well? Is that correct?
    Mr. Clancy. Sir, Tampa Bay Times called our Tampa Bay 
office on April 13, but there was no specification regarding 
Mr. Hughes, the gyrocopter.
    The question was simply would we be involved in civil 
disobedience displays by individuals, and we said we would be 
if it involved our protectee or one of our protected 
facilities. There was nothing specific.
    Mr. Walker. One of the opening remarks--and I am trying to 
remember specifically who talked about this--talked about on 
the radar, distinguishable versus undistinguishable.
    Can someone speak to that as far as--help me understand 
that.
    Mr. Huerta. An unfiltered radar feed picks up everything. 
It is cluttered with--in addition to aircraft, will include 
things such as traffic on the streets. It will include birds, 
anything that is moving around.
    And so, for our purposes at the FAA, we filter it for what 
our primary function is, which is to safely separate aircraft, 
and that means we filter out small things that might be a 
distraction to a controller.
    Now, what our forensic analysis showed was that the radar 
did indicate something after the fact that we were able to 
piece together as most likely the flight of the gyrocopter.
    Mr. Walker. But would you agree that after the fact may not 
be a good scenario?
    Mr. Huerta. No. I would agree with that. But the point 
being an air traffic controller can't do his job with a very 
cluttered screen. And so what we are very focused on is how can 
we ensure that a controller is able to safely separate air 
traffic in our case.
    Admiral Gortney. Sir, if I could----
    Mr. Walker. Yes. I will come to the Admiral in just a 
second.
    Can you answer your own question there? How can that be 
more safety conscious as far as being able to get through the 
clutter on his own screen?
    Mr. Huerta. What we do is--because the things that we are 
filtering out are things like birds or weather systems or small 
things that do not pose a threat to aviation safety.
    Now, we do provide the unfiltered radar to our partners 
across the Government, and each of the individual participants 
filters it for their own purposes.
    Mr. Walker. And I want to have time for the Admiral here. 
But help me understand this.
    Is there not--and you would know this, being the expert. If 
someone is flying a gyrocopter, isn't that a different pattern 
than what birds or other things may be flying around on a radar 
or an FAA system?
    Mr. Huerta. As I testified to earlier, it appeared and 
disappeared. It actually had much more in common with a weather 
system.
    Mr. Walker. OK. Admiral?
    Admiral Gortney. Sir, the characteristics on radar of an 
aircraft of this size, flying the speed and the altitude--it 
has the same characteristics of birds--of flocks of birds. It 
can appear the same way.
    And so we adjust. We take the feeds from the FAA as well as 
our own sensors, and then we adjust those filters based on the 
environmentals that would give us the highest probability to 
pick up the smallest possible target that's a real target.
    Mr. Walker. Thank you, Admiral. My time has expired.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. I recognize the gentleman from Georgia, 
Mr. Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank all of you for being here. We appreciate the work 
that you do. I have just three very quick questions for you or 
maybe comments.
    First of all, Mr. Clancy, thank you for being here. I 
believe you were hear a couple of weeks ago and I closed my 
comments with saying that I hoped I didn't see you anytime 
soon. Here we are again.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Chief Dine, I want to ask you--we had an 
incident in Cannon--I believe it was last week--where there was 
a suspicious powder that was found. I know that my staff had 
four emails sent to them during that time. Yet, in this 
situation with the gyrocopter, we only had one email sent to 
us, and that was after the fact.
    Why the difference there? What different scenario lead us 
to that situation?
    Chief Dine. The answer is that the systems we had in place 
failed and we immediately fixed them. And I certainly 
understand your concern.
    So messages will be sent immediately now. And I appreciate 
the fact that you acknowledge that we sent them in those other 
instances.
    Mr. Carter. We sent them in those other instances, but we 
didn't with the gyrocopter?
    Chief Dine. We sent some out, but clearly it was not 
comprehensive enough. Yes, sir. You're correct.
    Mr. Carter. Gentlemen, it just appears to me that we are 
not keeping up with the times. I have been sitting here and I 
hear what you say, that this needs to be discussed in a 
confidential hearing, and I get that. But I am still not 
confident--and I think the people want to be confident--that we 
are keeping up with the times.
    Drones aren't anything new. They have been around. And, 
yet, all of a sudden we are having all these incidents. We read 
about the incident in Japan with the Prime Minister and the 
radioactive material that was sent there. That is scary. It is 
scary for me and scary for everyone.
    Are you comfortable and confident--and I want you to assure 
the American people that you are--that we have got this under 
control?
    Admiral Gortney. Sir, we can assure the American people 
that all of us at this table and the whole of Government is 
working their very best to protect this Nation and its citizens 
against the many threats that happen to be out there. In closed 
session, I'll tell you what we're doing about this particular 
threat.
    Mr. Carter. Does that mean it is not going to happen again?
    Admiral Gortney. I can never say it is not going to happen 
again, sir.
    Mr. Carter. I understand, that.
    The last thing is the communication particularly among all 
of you. You know, look, I am a freshman rep. I have been up 
here for 4 months. But I have been in business for many years, 
and I know that communication is the key and you have to 
surround yourself with good people and you have to make sure 
everybody is talking to each other.
    But I am just not getting that warm and fuzzy feeling here 
today after listening to all of this that that is happening 
with you all. And I just want you to assure me, if that has not 
been the case up to this point, that it will be the case in the 
future.
    Admiral Gortney. Sir, on the morning of 9/11, a network, a 
telephone line, went into effect, and it has never been hung up 
since. And it includes--we call it the DEN--it includes over 
200 mission partners that protect the American people for this 
particular threat--for the air threat. It is called the DEN.
    And it is exercised and it operates every single day. Twice 
a day just for the national capital region every one of those 
200 mission partners are dealing with a penetration to our 
special flight--the SFR. Twice a day it occurs. And once a week 
we actually launch the Coast Guard helicopters in order to do 
it. So not only is it operating, it is exercised, it is 
utilized, every single day.
    Mr. Salesses. Congressman, if I could, too, there is an 
effort underway by the White House and the National Security 
Council to bring all the Federal departments together to look 
at these issues, in particular, technologies that are currently 
available, technologies that are being in development, and 
looking at possible procedural changes when we encounter these 
kinds of situations.
    Mr. Carter. Again, gentlemen, I want to thank you for the 
work that you do and encourage you. Please, this is extremely 
important and we really need you. So thank you for being on top 
of your game.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I recognize the ranking member.
    Mr. Cummings. Thank you very much.
    I want to thank all of you for being here. But I just have 
three issues that I want to raise, and Mr. Carter mentioned one 
of them. You know, as I sit here, I cannot help but be 
concerned about the communication situation here.
    Mr. Salesses, you said that you didn't even know that the 
ranking--the chairman and ranking member, four committees, 
wanted you to be here the other day?
    Mr. Salesses. Sir, I did not personally know.
    Mr. Cummings. There is something wrong with that picture. 
There is something wrong with that picture. And let me tell you 
what I tell my staff. When something goes wrong and I find out 
about it, I wonder what I don't know about. And so, if you 
recall, at the beginning of the hearing, I said people talk 
about when the rubber meets the road and then we discover there 
is no road. So communication is basic stuff.
    And then I want to just--and this is directly connected. 
You know, one of the things that we have noticed in a lot of 
committees--not just this committee, but other committees--is 
that folks seem to operate and want to operate in silos, silos. 
You are doing something over here. I am doing something over 
here. I have got my turf. You have got your turf. And it works 
against effectiveness and efficiency. And I just want to make 
sure that you all assure us that you truly are working 
together. I just think we--this is of such urgency.
    And my final point. I know you said that your staffs get 
together, top-level staff. I guess that is what you all are 
saying. You all need to get together, and it should not be just 
to prepare--to get your notes together for a hearing.
    I mean, you all are--I mean, you are there. You are paid to 
do a certain job. And, I mean, this is with all the respect 
that I have for you, and it is tremendous respect. But it is 
not about your deputy or whatever. It is you all. We look to 
you all. You are the experts. You are the ones who give your 
blood, sweat, and tears, and you all are the brilliant minds 
that we rely on every day to keep us safe.
    And I think you all need to be meeting. I know somebody 
said that the White House is trying to put something together 
where folks get together. I mean, that is just--I mean, that 
just comes from you, you, particularly after we have an 
incident like the one that happened here.
    And so, you know, I am anxiously looking forward, Mr. 
Chairman, to the closed session. And I know you are going to 
talk about that in a minute so that we can get some answers.
    And if there are things that you could not answer--I hope 
you all took notes about the things that you said that we have 
to discuss in closed session, and then we'll do that. But, 
again, I want to thank you for being here today. And we are 
going to press forward.
    Mr. Chairman, thank you.
    Chairman Chaffetz. I thank you.
    And this has been a good, productive hearing, but we will 
go to a closed hearing at another date. We have two other 
subcommittee hearings. We got backed up with the Prime 
Minister. We appreciate your patience. You all have important 
jobs to do as well. So we will work together at another time.
    I do have a few more questions. The Tampa Bay Times 
published stories prior to this incident. The guy in the 
gyrocopter was live-feeding a stream. I have heard a story from 
one of the major networks where they were watching it in New 
York, called down to the Capitol, and had staff reporters and 
producers go down on the grass to watch it happen.
    Do you all not monitor social media? Is Twitter like a new 
thing for you? I mean, this stuff is out there. Try Google 
Alerts. It is there. If it is not showing up on the radar, it 
was showing up on the media's radar. And I don't understand why 
you aren't able to pick up that sort of signal.
    Because if you say that there is never any exposure in 
advance, we have got to become more technically savvy, if you 
can truly have somebody read a story online, get it to the 
appropriate person in New York, send a producer, she walks down 
on the grass and watches this land, and you all have billions 
of dollars, billions, and you don't see a dude in a gyrocopter 
flying over.
    We deal with this on the border every single day. If I get 
Customs and Border Patrol up here, they would tell you about 
how they are detecting these. They will tell you how the 
incursions are working. They have got special things that I 
can't talk about right here. I have been in them. I have seen 
them. They are very candid and open.
    And they are in the same Department. That is why we had 
Homeland Security. After 9/11, we formed Homeland Security to 
communicate, to coordinate. And the only time you all seven can 
get together is when you get called to the Oversight and 
Government Reform Committee. That is in excusable.
    If the major networks can watch it live on television, I 
expect you to watch it on live television and do something 
about it. And I still have huge questions about what you would 
actually do. I want the men and women who are out there on the 
front line that have their hands on those triggers to know we 
have got their back.
    We don't know if the person has mental capacity. I am going 
to assume they do. But you cannot come into the capital region. 
You are not going to go on that Lincoln Memorial. You are not 
coming to the White House. You are not coming into the United 
States Capitol unimpeded. We are going to take you down. That 
is the prevailing attitude.
    We can get all these sob stories about how nice we want to 
be. But until we project force, until we let people know that, 
``If you come here, you are going to go down. Then we will 
figure out your disposition,'' then we are sending all the 
wrong signals. We are sending all the wrong signals.
    And so every time we have an incursion and they are not 
taken down fast and hard, some other-job is going to get an 
idea and terrorists are going to get more ideas. Figure it out. 
We pay you a lot of money, billions of dollars, and it has been 
a long time since 9/11. Figure it out.
    To the men and women who are doing this, God bless them. I 
cannot thank them enough. They do amazing things.
    Two more questions and then I will be done. I would like 
after this hearing to get your comments or your reaction, if 
you are allowed, on the charges that were brought against this.
    One of the things I hope I can work with the ranking member 
and others on--this gentleman was charged with a misdemeanor. 
This is a misdemeanor offense. The more stringent offense was 
his flying of a gyrocopter. But an incursion into the airspace, 
we have to look at that as a Congress.
    Finally, I have got to ask you, Mr. Clancy: Is A.T. Smith 
still on the Secret Service payroll?
    Mr. Clancy. Yes, sir. He's a detailee to another Homeland 
department.
    Chairman Chaffetz. Where does he work? What is his title?
    Mr. Clancy. Sir, I am not aware of his title, but he works 
for the CBP.
    Chairman Chaffetz. Is he your Chief of Staff?
    Mr. Clancy. No, sir.
    Mr. Chaffetz. He doesn't hold the title of Chief of Staff?
    Mr. Clancy. Sir, he's not--I don't know what his title is. 
He has not been----
    Mr. Chaffetz. Does he work in the Secret Service building?
    Mr. Clancy. No, sir.
    Chairman Chaffetz. Does he have a Secret Service vehicle?
    Mr. Clancy. Not that I am aware of. No, sir.
    Chairman Chaffetz. You will get back to me on that and 
confirm that?
    Mr. Clancy. Yes, sir.
    Chairman Chaffetz. Whose decision was it--yours or 
Secretary Johnson's--to detail Smith rather than transfer him 
out of the agency?
    Mr. Clancy. Sir, it was my decision.
    Chairman Chaffetz. So why do you keep him in the Secret 
Service? You sent out a press release that says he accepted a 
position within the Department of Homeland Security effective 
Tuesday, February 10, 2015, but he still works for the Secret 
Service.
    Mr. Clancy. Sir, he's detailed to--he is on our payroll. 
Yes, sir.
    Chairman Chaffetz. Why?
    Mr. Clancy. Sir----
    Chairman Chaffetz. You told me, you told the ranking 
member, you told the world--you all sent out a press release 
saying he was being transferred. But he still works for the 
Secret Service, doesn't he? He still gets a Secret Service----
    Mr. Clancy. He gets a Secret Service paycheck. Yes, sir.
    Chairman Chaffetz. How long is he detailed for?
    Mr. Clancy. Sir, it has not been defined, the time limit.
    Chairman Chaffetz. It has been since February.
    Mr. Clancy. Yes, sir.
    Chairman Chaffetz. Ranking Member Cummings.
    Mr. Cummings. Does the chairman yield?
    Mr. Clancy, just following up on that, so is he actually 
working--I mean, I know he gets a Secret Service paycheck.
    But is he actually working for the Secret Service in his 
detailed type of position?
    Mr. Clancy. No, sir. I have no contact with Mr. Smith.
    Mr. Cummings. None?
    Mr. Clancy. None, sir.
    Mr. Cummings. And we have details up here, too. So they 
have a limited time that they are with us.
    Can you tell us what the limitations are, wherever he is, 
and can you get that information to us?
    Mr. Clancy. Sir, I'll have to get back to you on that. Yes, 
sir.
    Mr. Cummings. All right. Thank you very much, Mr. Chairman. 
I yield back.
    Chairman Chaffetz. You have done, Mr. Clancy, a very good 
job of building trust and confidence. It is flushed down the 
toilet when I read and hear about these things.
    You said to us, to me personally, multiple times, the White 
House did, Homeland Security did, Secretary Johnson did, Mr. 
Mayorkas did, that you are implementing fundamental changes.
    Mr. Clancy. Yes, sir.
    Chairman Chaffetz. And this guy is still on the payroll. 
You sent out a press release touting that he was going to 
another department and agency and he does no work for the 
Secret Service, and, yet, he is on your payroll.
    Don't ever come back here to Congress and tell me that you 
have a financial problem when you have got A.T. Smith on your 
payroll and you say you don't have enough money. You shouldn't 
have to pay for that out of your budget. He is a very, very 
senior person.
    You personally promised that he was being moved and 
transferred out of the Department, and he hasn't. I am not 
buying this unlimited detail thing. This is just classic 
Homeland Security shuffling around, and every one of your 
employees knows it. How do you think I know it? I don't go to 
work there. Your employees know it. And you lose their trust 
and confidence that you are actually implementing the change 
that you say you are going to.
    There was no consequence to all these things we have talked 
about if he can keep his job, have a great title, get the same 
paycheck, you know, get a detailee, when waters calm down, then 
we will sort things out.
    With that, the committee stands adjourned.
    Mr. Cummings. Mr. Chairman, 1 second. I just want to ask 
one more question. Because the things you just said concern me, 
and I just wanted Mr. Clancy to have an opportunity to respond 
to that.
    If you want to. You may not want to. Those were some strong 
accusations, and I am just wondering, do you have a response?
    Mr. Clancy. Sir, Mr. Chairman, all I can say is that I was 
looking for a fresh perspective in our leadership team, and we 
thought this was one opportunity to do that.
    And I am very pleased with the team that we have in place 
today. We have not gone back to those individuals who have 
taken these detailee positions. So I didn't have any other 
comment, sir.
    Mr. Cummings. Is it unusual for you to detail people--I 
mean, the Secret Service to detail people?
    Mr. Clancy. No, sir. We have detailees certainly up here in 
Congress. We are the beneficiary of detailees as well.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. Reclaiming my time, one more time, I 
have got to tell you, you tried to tell the men and women of 
the Secret Service, you tried to tell Congress, you tried to 
tell the world, that you were making changes. And everybody can 
look this up. It is public knowledge.
    But here is $183,000 that comes out of your budget that 
could have gone to somebody else. Hire a new, fresh person. 
Promote somebody within the agency. Do whatever you might. But 
then you are going to come crawling back to Congress, saying, 
``I need more money. I need more money.''
    The four assistant directors that you also released, that 
were transferred away, are they also detailees or are they 
still on the Secret Service payroll?
    Mr. Clancy. Sir, there is one--one is a detailee on our 
payroll. Yes, sir.
    Chairman Chaffetz. And where is he detailed to?
    Mr. Clancy. Sir, he is also with--he is with ICE, sir.
    Chairman Chaffetz. What do they do at ICE?
    Mr. Clancy. And they can correct me if I'm wrong here.
    I believe he's in a training position.
    Chairman Chaffetz. Will you provide to this committee by 
the week's end the disposition of each of the people that you 
supposedly--you know, you were cleaning house. You were making 
changes. You were touting that. You were telling the committee 
that.
    Tell us exactly with each and every one of them where they 
are, how long the detail it, how much they make, all the 
relevant details that our staff asked for.
    Is that fair enough? Can you do that by the end of the 
week?
    Mr. Clancy. Yes, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    We now stand adjourned.
    [Whereupon, at 2:11 p.m., the committee was adjourned.]






                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
